Office of
Inspector
General
Semiannual
Report to
the Congress
April I, 1986 to
September 3D, 1986



~ovennberl!1986
\
FOREWORD
This report, submitted pursuant to the Inspector
General Act of 1978, summarizes Office of Inspector
General activity over the 6-month period ending
September 30, 1986. It is my second Report to the
Congress and marks the completion of my first year in
office.
Submission of this report occurs at a turning point for
the Office of Inspector General. With the enactment of
the Fiscal Year 1987 budget, this office now has the op-
portunity to ameliorate the inefficiencies, productivity
losses, dislocations, and coverage problems resulting
from staffing losses over the last few years. This posi-
tive outlook is a result, in part, of the strong support we
have received from GSA's management at all levels
and especially from the Administrator, the Office of
Management and Budget, and the Congress.
I am truly encouraged by the Office of Inspector Gen-
eral's posture in Fiscal Year 1987 and look forward to
the opportunities and challenges it holds.




WILLIAM R. BARTON
Inspector General

October 31, 1986
INTRODUCTION AND OVERVIEW

A. Introduction                                                •   The need to change ambiguous terminology in
                                                                   GSA's contract for overnight delivery services.
This report, submitted pursuant to the Inspector Gen-          •   The need to fully implement a computerized
eral Act of 1978, chronicles the activities of the General         inventory system at an industrial products store.
Services Administration (GSA) Office of Inspector Gen-
eral (OIG) between April 1, 1986 and September 30,           In addition, the Department of Justice and/or FSS offi-
1986. It is the sixteenth Report to the Congress since       cials utilized information in OIG audit reports to
the appointment of GSA's first Inspector General.            negotiate:
                                                               •   A $6 million cost avoidance on a contractor
                                                                   claim.
                                                               •   Pricing concessions valued at $5.2 million on pur-
B. Overview                                                        chases of copying equipment.
The following paragraphs provide an overview of OIG          Detailed information on these and other activities is
audit and investigative coverage of the Agency, as well      presented in Section III.
as a summary of OIG accomplishments and productiv-
ity. In addition, this section highlights significant OIG
prevention activities.                                       Information Resources Management Service
                                                             The OIG expended 19 percent of its direct workhours
1. Audit and Investigative Coverage of                       performing audits and investigations involving the pro-
                                                             grams and personnel of the Information Resources
   GSA Programs                                              Management Service (IRMS). As a result, IRMS is now
                                                             in the process of addressing the need for:
Audit and investigative coverage of GSA programs
identified a number of opportunities for more efficient        •   A more effective Contract Services Program that
and effective Agency operations. Overall, this report              better supports customer agencies.
reflects a strong commitment on the part of GSA man-           •   Actions to prevent erroneous payment of State
agement to make those improvements.                                and local taxes on procurements of telecommun-
                                                                   ications equipment.

Public Buildings Service                                     In addition, IRMS contracting officials successfully
                                                             negotiated two recoveries, each valued at close to
The OIG expended 46 percent of its direct workhours          $2.2 million, as a result of the findings developed
reviewing Public Buildings Service (PBS) programs.           through OIG postaward audits.
Resultant audits assisted PBS managers in improving          Detailed information on these and other activities is
operations in a number of ways, including:                   presented in Section IV.
  •   Conserving energy in leased space.
  •   Improving the methods for evaluating cleaning          Other GSA Coverage
      service contract bids.
                                                             The OIG expended 8 percent of its direct workhours
  •   Avoiding payments of $224,000 for essentially
      vacant space.                                          reviewing organizations such as the Office of Admin-
                                                             istration, the Federal Property Resources Service, and
  •   Avoiding payments of up to $2.6 million by incor-      the Office of the Comptroller. The resultant audits ad-
      porating termination provisions in a proposed lease    dressed a variety of areas, including stockpile opera-
      extension.                                             tions, Government-owned vehicle utilization, imprest
                                                             funds, and GSA's implementation of the Federal Man-
Detailed information on these and other activities is        agers' Financial Integrity Act (FMFIA). In response to
presented in Section II.                                     issues raised in three audits, management took action
                                                             to improve:
Federal Supply Service                                         •   Controls over the use of the   Fed~ral   Telecom-
                                                                   munications System.
The OIG invested 26 percent of its resources in audits
                                                               •   Accountability over GSA-owned automated data
and investigations of Federal Supply Service (FSS) pro-            processing and office automation equipment.
grams. Noteworthy audits issued this period advised
management of:                                                 •   GSA's process for implementing Section 2 of the
                                                                   FMFIA.
  •   Opportunities to improve the effectiveness of the
      transportation audit program in identifying and        Detailed information on these and other activities is
      collecting carrier overcharges.                        presented in Section V.
     2. OIG Accomplishments and                                                  •    33 reprimands, 10 suspensions, 1 demotion, and
        Productivity                                                                  11 terminations on administrative referrals
                                                                                      involving GSA employees;
     The OIG tracks its accomplishments both on an aggre-                        •    8 Inspector General subpoenas; and
     gate basis and, in critical areas of our performance, on
     the basis of actual staff years incurred. The latter cal-                   •    269 legislative initiatives and 150 regulations and
     culations yield productivity data that are less subject to                       directives reviewed.
     fluctuating staffing levels.                                             Management commitments to more efficiently use
                                                                              resources, management commitments to recover
                                                                              funds, voluntary recoveries, court-ordered recoveries,
     Overall DIG Accomplishments                                              and investigative recoveries totaled $50,873,401 during
                                                                              the second half of FY 1986. This represented a return of
     OIG accomplishments this period included:                                $5.54 for every $1 budgeted to OIG operations during
       •    321 audit reports;                                                the 6-month period.
       •    $95,765,168 in recommendations for more efficient                 Detailed information on these and other activities is
            use of resources and in recovery recommendations;                 presented in Sections VI and VII.
        •   $42,740,658 in management commitments to
            more efficiently use resources;                                   OIG Productivity
        •   $8,132,743 in management commitments to re-
            cover funds, voluntary recoveries, court-ordered                  As noted previously, in critical areas of our perform-
            recoveries, and investigative recoveries;                         ance we compute OIG productivity based on actual
                                                                              staffyears-full-time equivalent (FTE) positions-
       •    183 investigative cases opened and 236 closed;                    incurred. Since these data are less subject to fluctuating
        •   28 case referrals accepted for criminal prosecution               staffing levels, they are an excellent mechanism for
            and 3 case referrals accepted for civil litigation;               measuring OIG performance over time.

        •   24 indictments/informations/complaints on                         The following table presents these productivity data for
            criminal referrals;                                               FYs 1983 through 1986. Although fluctuations by in-
                                                                              dividual category are present throughout the table, orG
        •   37 successful criminal prosecutions;                              productivity in FY 1986 was in line with levels estab-
                                                                              lished during the previous 3 years. This represents a
        •   3 settlements and 1 judgment on civil fraud
                                                                              substantial achievement on the part of OIG staff, given
            referrals;
                                                                              that FY 1986 saw a continued decline in personnel re-
        •   21 contractor suspensions and 16 contractor de-                   sources that brought OIG staffing to its lowest level
            barments on administrative referrals;                             since FY 1979.

                         Productivity Factor                                 FY83              FY84              FY85        FY86

            Total costs recovered/avoided* per audit,
              counsel, and investigations FTE .............. .              $352,910          $522,688          $444,152     $368,179
            Recommended cost avoidance and recovery
              per audit FTE .................................. .            $587,825         $1,357,104         $601,564     $792,089
            Audit reports per audit FTE ..................... .                3.2               3.1               2.7          2.9
            Referrals (criminal, civil, and administrative) per
              investigations FTE ............................ .                 5.9               8.4                  7.6      6.0
            Positive investigative outcomes (indictments/
              informations/complaints/successful
              prosecutions) per investigations FTE ........ .                   1.3               0.9                  1.2      1.2
            Employee actions (reprimands, terminations,
              suspensions, and demotions) per
              investigations FTE ............................ .                 1.2               1.6                  1.5      1.3
     *Includes management commitments, voluntary recoveries, court-ordered recoveries, and investigative recoveries.


     3. Prevention Activities                                                    •    Completion of 28 preaward advisory reviews of
                                                                                      leases involving annual rentals in excess of
                                                                                      $200,000.
     As detailed in Section VIII, the OIG's program to pre-                      •    Integrity Awareness Briefings for 319 GSA
     vent fraud, waste, and mismanagement encompasses a                               employees.
     wide variety of activities.
                                                                                 •    Receipt of 373 Hotline calls/letters and referral of
ii   Highlights of our efforts during the period include:                             114 of these complaints for further action.
TABLE OF CONTENTS
                                                                       Page                                                                              Page
INTRODUCTION AND OVERVIEW ......... ,.                                        SECTION VI-STATISTICAL SUMMARY OF
                                                                              OIG ACCOMPLISHMENTS.....................                                    21
REPORTING REQUIREMENTS .............. , .                               iv      A. OIG Accomplishments. ....... ........ .....                            21
SECTION I-ORGANIZATION, STAFFING,                                               B. Summary Statistics. . . . . . . . . . . . . . . . . . . . . . . . .    22
AND BUDGET ... , .............................. , .                      1
                                                                              SECTION VII-·REVIEW OF LEGISLATION
  A. Organization.................................                       1    AND REGULATIONS ...... , . . .... . . .. .. . . .. . . . . .                29
  B. Office Locations........... ..... . ............                    1      A. Legislation/Regulations Reviewed. .. . . . . .                         29
  C. Staffing and Budget. . . . . . .. . . .. . . . . .... . . .. ..     1
                                                                                B. Significant Comments. . .. . .. . . . . . .. . . . .. . . .            29
  D. Staffing and Budget Issues.. .. . . . . .... . .. . . .             1
                                                                              SECTION VIII-OTHER OIG ACTIVITIES...                                        31
SECTION II-PUBLIC BUILDINGS                                                     A. OIG Prevention Program. . . . . . . . . . . . . . . . . . .            31
SERVICE...........................................                      3       B. Projects Sponsored by the PCIE . . . . . . . . . . . .                 32
 A. Overview of OIG Activity. . . . . . . . . . . . . . . . . .         3
 B. Significant Audits and Investigations ... , .                       3
  C. Significant Preaward Audits................                        6
 D. Statistical Highlights..... ..... . ............                    6     APPENDICES
  E. Significant Audits From Prior Reports.. ..                         6
SECTION HI-FEDERAL SUPPLY SERVICE..                                    10     APPENDIX I-AUDIT REPORT REGISTER..                                          34
 A. Overview of OIG Activity ................ ,.                       10
 B. Significant Audits and Investigations. . . . .                     10     APPENDIX II-DELINQUENT DEBTS........                                        47
  C. Significant Pre award Audits................                      12
                                                                              APPENDIX III-SUMMARY OF OIG
  D. Statistical Highlights. . . .. . . ... . . . .... . . . . . .     13
                                                                              PERFORMANCE DURING FISCAL
  E. Significant Audits From Prior Reports. . . .                      13
                                                                              YEAR 1986.........................................                          48
SECTION IV-INFORMATION RESOURCES
MANAGEMENT SERVICE......... . ............                              14
 A. Overview of OIG Activity ........ ,.........                        14
  B. Significant Audits...........................                      14    LIST OF TABLES
  C. Significant Preaward Audits... . ...... ......                     15
  D. Statistical Highlights........... ............                     16    1.   Summary of OIG Audits. . . . . . . . . . . . . . . . . . . . . . .     22
                                                                              2.   Resolution of OIG Audits .....................                         23
  E. Significant Audits From Prior Reports....                          16
                                                                              3.   Resolution Decisions on OIG Audits. . .. . . .. .                      24
SECTION V-OTHER GSA COVERAGE......                                      18    4.   Summary of Contract Audit Settlements.. . .                            25
  A. Overview of OIG Activity. .... . ............                      18    5.   Investigative Workload........................                         26
  B. Significant Audits.... ...... ..... ........ ....                  18    6.   Distribution of Cases Opened This Period...                            26
  C. Significant Preaward Audits................                        19    7.   Summary of OIG Subject Referrals...........                            27
  D. Statistical Highlights. .. .. . . ... . .. . .... . . . . .        19    8.   Summary of Criminal and Civil Actions. . . . .                         28
  E. Significant Audits From Prior Reports. . . .                       20    9.   Criminal and Civil Recoveries. . . . . . . . . . . . . . . .           28




                                                                                                                                                                iii
     REPORTING REQUIREMENTS
     The table below cross-references the reporting require-          No. 96-829 relative to the 1980 Supplemental Appro-
     ments prescribed by the Inspector General Act of 1978            priations and Rescission Bill is also cross-referenced to
     to the specific pages where they are addressed. The in-          the appropriate page of the report.
     formation requested by the Congress in Senate Report



                                                  Source                                                      Page

          Inspector General Act
          1. Section 4(a)(2)-Review of Legislation and Regulations .......................... .                 29
          2. Section 5(a)(1 )-Significant Problems, Abuses, and Deficiencies ................ .           3,10,14,18
          3. Section 5(a)(2)-Recommendations With Respect to Significant Problems,
             Abuses, and Deficiencies ........................................................... .       3, 10, 14, 18
          4. Section 5(a)(3)-Prior Recommendations Not Yet Implemented ................. .                6, 13, 16, 20
          5. Section 5(a)(4)-Matters Referred to Prosecutive Authorities .................... .                 27
          6. Sections 5(a)(5) and 6(b)(2)-Summary of Instances Where Information Was
             Refused ...................................................... '" ..................... .   None This Period
          7. Section 5(a)(6)-List of Audit Reports ............................................. .             34
          Senate Report No. 96-829
          1. Resolution of Audits ................................................................. .          23
          2. Delinquent Debts .................................................................... .           47




iv
SECTION I-ORGANIZATION, STAFFING,
AND BUDGET

Pursuant to the Inspector General Act of 1978, an gations office in San Francisco. In contrast with GSA's
Office of Inspector General (OIG) was established with- new regional structure, the orG maintained a full field
in the General Services Administration (GSA) on audit office in Auburn, and full field audit and investi-
October 1, 1978. As currently configured, the OIG con- gations offices in Boston. This decision was based upon
sists of four offices that function cooperatively to per- the extensive number of GSA contractors located in
form the missions legislated by the Congress.             these areas.
                                                              The OIG's current regional structure therefore consists
                                                              of:
A. Organization                                                 •   Field audit and investigations offices in Boston,
                                                                    New York, Philadelphia, Atlanta, Chicago,
The OIG utilizes a functional organizational structure              Kansas City, Fort Worth, San Francisco, and
to provide nationwide coverage of GSA programs and                  Washington, D.C.
activities. It consists of:
                                                                •   A field audit office in Auburn.
  41)   The Office of Audits, a multidisciplinary unit
        staffed with financial and technical experts who        •   A resident audit office in Denver.
        provide comprehensive coverage of GSA opera-            •   Resident investigations offices in Auburn,
        tions (internal or management audits) as well as            Cleveland, St. Louis, Denver, and Los Angeles.
        GSA contractors (external or contract audits).
        Headquarters divisions direct and coordinate the
        audit program, which is performed by the 10 field

  •
        audit offices and 1 resident office.
        The Office of Investigations, an investigative unit
                                                              c.    Staffing and Budget
        that manages a nationwide program to prevent          The OIG's approved Fiscal Year (FY) 1986 budget is ap-
        and detect illegal and/or improper activities in-     proximately $19.3 million, which reflects an intra-
        volving GSA programs, personnel, and opera-           Agency transfer of $190,000. Some $9.7 million was
        tions. Operations officers at headquarters            available for obligation during the reporting period.
        coordinate and oversee the investigative activity
        of 9 field investigations offices and 5 resident      While the OIG's approved staffing level is 452 full-time
        offices.                                              equivalent (FTE) positions, only 371 FTE positions were
                                                              fundable during the year. As of September 30, 1986, the
  41)   The Office of Counsel to the Inspector General, an    OIG had incurred 363 FTE workyears.
        in-house legal staff that provides opinions and ad-
        vice on matters under OIG review. These attorneys
        also manage the civil referral system, formulate
        OIG comments on existing and proposed legisla-
        tion and regulations, and assist in litigation.
                                                              D. Staffing and Budget Issues
  41)   The Office o~ Policy, Plans, and Management Sys-      In our May I, 1986 Report to the Congress, we devoted
        tems, a centralized unit that oversees the devel-     considerable attention to the continued decline of orG
        opment of OIG policies and plans, evaluates the       financial and personnel resources. The OIG started
        operations of the other orG components, provides      FY 1986 with on-board staffing of 374, which was then
        data systems support, and handles budgetary, ad-      supplemented by 12 transfers from the Agency, bring-
        ministrative, and personnel matters.                  ing total OIG staffing to 386. However, the OIG's fund-
                                                              able FTE level was only 371. By the end of the first 6
                                                              months of FY 1986, an OrG hiring freeze had reduced
                                                              on-board staffing by 20. During the second 6 months of
B. Office Locations                                           FY 1986, budget-related events included the following:
                                                                •   Continuation of the OIG hiring freeze in order to
The OIG continues to be headquartered in Washington,                bring overall FY 1986 OIC personnel expenditures
D.C., at GSA's Central Office building. This period,                within the fundable FTE level.
however, the OIG modified its regional organizational
structure to reflect changes in GSA's regional structure.       •   Intervention by the GSA Administrator to assist
Specifically, the OIG's audit and investigative func-               the OIG in maintaining a viable contract audit
tions in Denver were designated as resident offices re-             program. The Administrator exercised his 1 per-
porting to the OIG field offices in Fort Worth; and the             cent budget transfer authority to transfer
OIG's investigative function in Auburn was designated               $190,000 from Agency budget accounts to the
as a resident office reporting to the orG field investi-            OIG.
                                                                                                                         1
      e   OIG participation in the Agency's "early-out" re-    e   Negotiation of an interagency agreement with the
          tirement program. As a result, eight unantici-           Office of Personnel Management (OPM) that per-
          pated retirements occurred in the last half of the       mits use of OIG-conducted preemployment suit-
          fiscal year.                                             ability investigations as a method for filling
                                                                   security-sensitive positions prior to completion
    The net result of these events was that, by the end of         of OPM full field background investigations.
    FY 1986, OIG staffing had been reduced to 340, its low-
    est level since FY 1979.                                   e   Realignment of the ~iG's regional organizational
                                                                   structure (see Paragraph B, Office Locations) and
    The budget/personnel challenges facing the OIG in              development of model staffing plans based on the
    FY 1987 are much different. With the solid support of          new organizational structure.
    the Administrator, OMB, and the Congress, almost
    $2 million in additional funding has been provided to      e   Promulgation of a detailed 5-year computer/office
    the OIG. This level of appropriation represents a fund-        automation plan.
    able FTE level of 430, given that new personnel are
    hired at entry levels. In order to accommodate hiring      e   Development of training plans to comprehen-
    demands and ensure that OIG coverage increases at              sively address the professional development
    least commensurately, the OIG has already taken a              needs of existing staff, as well as the training
    number of preparatory steps. These include:                    needs of new recruits.




2
SECTION II-PUBLIC BUILDINGS SERVICE

The Public Buildings Service (PBS) manages much of
the Federal Government's real estate assets nation-
                                                            B. Significant Audits and
wide. Its responsibilities extend from constructing,           Investigations
purchasing, and leasing space for Government use to
maintaining and protecting that space. In the second
                                                            This section summarizes significant internal audits
half 0/ FY 1986, the total available funding authority of
the Federal Buildings Fund was almost $2.2 billion.         and investigations dealing with PBS. Significant pre-
During the same period, PBS obligated almost                award contract audits are presented in Section C.
$1.6 billion of these funds.
Commensurate with this level of activity, the OIG           Energy Conservation in Leased Space
devoted some 64,130 direct s taf/h ours pursuing 502 au-
dit and investigative assignments. These figures reflect    This period, the ole evaluated energy usage in one
46 percent of total OIG direct staf/hours and approxi-      GSA region. The review focused on Category C leased
mately 49 percent of all work assignments.                  buildings, i.e., lessor-operated facilities wherein the
                                                            Government leases over 3,500 square feet and pays at
                                                            least 50 percent of the utility costs. We selected three
                                                            buildings, representing almost 10 percent of the
                                                            region's Category C space, for review.
A. Overview of OIG Activity                                 Our review disclosed that the region had made notable
                                                            progress in identifying and monitoring energy usage
This period, more than half of the internal audit reports   problems, but additional opportunities for energy con-
issued by the ore addressed PBS programs and activi-        servation still existed. For example, we found that
ties. We presented findings relative to energy conser-      estimated annual savings of $228,000 could be realized
vation, contract award and administration, fire and         by eliminating wasteful tenant agency operational
safety issues, lease enforcement, and buildings manage-     practices; enforcing eSA standards for lighting levels
ment. Some of the more significant reviews advised          and room temperatures; and requiring lessors to
PBS management of opportunities to:                         promptly correct maintenance deficiencies. We also
  .,   Save energy in leased space.                         found that energy conservation could be enhanced by
                                                            incorporating energy-related provisions into leases .
  ., Improve methods for evaluating cleaning service
     contract bids.                                         In our April 8, 1986 audit report, we offered ten recom-
                                                            mendations to the Assistant Regional Administrator,
  .,   Strengthen internal controls over transformers       Office of Public Buildings and Real Property, to correct
       containing polychlorinated biphenyls (PCBs).         these and other deficiencies. Some of the more signifi-
  .,   Avoid annual rental payments of $224,000 for         cant recommendations included:
       essentially vacant space.                              ., Identify and report to tenant agency authorities
  ., Avoid up to $2.6 million in rent under a proposed           chronic uneconomical energy practices .
     lease extension.                                         ., Incorporate energy-related provisions into new
PBS is now formulating/implementing corrective ac-               leases and, where economical and feasible, incor-
tions for these reviews based on our recommendations.            porate revised provisions into existing Category C
                                                                 leases.
The OIe also issued 107 contract audits relative to PBS
programs, many evaluating construction claims,                ., Use lease enforcement actions to assure that les-
change orders, and architect and engineering services            sors initiate timely corrective actions.
proposals. In total, these audits recommended cost          The Regional Administrator submitted responsive
avoidances and cost recoveries of almost $23 million.       action plans for implementing the report recommen-
Two audits, which account for over $6 million of the        dations. Resolution was achieved on September 30,
recommended cost avoidance, are highlighted herein.         1986.
Ole investigators completed 117 cases involving PBS
programs, operations, or employees. Of these cases, 70
percent involved allegations of white collar crimes and     Price Analysis Techniques Require
employee misconduct. Notably, one investigation             Strengthening
resulted in the conviction of an assistant buildings
manager and two contractor personnel of various             As part of a multiregional review of cleaning contracts,
charges relating to a scheme for obtaining repair and       the ore evaluated one eSA region's award and admin-
alteration contracts.                                       istration procedures. As of September 30, 1985, the
    region administered 52 contracts valued at over             probation and fined on an obstruction of justice charge,
    $26 million.                                                while the contractor's secretary was sentenced to 3
                                                                years of probation, fined $1,000, and ordered to serve
    The review disclosed that two of the four methods used      100 hours of community service after pleading guilty to
    to analyze the reasonableness of contract bids were         a misdemeanor charge of theft.
    flawed. The first, comparing bid prices to those in
    recently awarded contracts, was essentially meaning-        These convictions stemmed from an OIG buildings
    less since comparisons were made between dissimilar         management review that uncovered evidence of com-
    procurements. A random review of recent contracts dis-      mon ownership of private firms competing for GSA
    closed that bids for standard-level cleaning had been       contracts and falsified inspection reports. Subsequent
    compared to contracts for executive cleaning; a bid for     OIG investigation disclosed that the three subjects had
    cleaning warehouse space had been compared to one for       formed a business to obtain repair and alteration con-
    cleaning office space; and comparisons had been made        tracts. The· assistant buildings manager then directed
    between buildings of varying size.                          GSA contract business to their company. Most of the
                                                                work was paid for but never performed.
    Moreover, we found that the second method, compar-
    ing Government estimates to contractor bids, was com-
    promised by outdated workload documents. These
    documents, which detail the size, type of space, and
                                                                Controls Over PCB Contaminants
    cleaning requirements by building, were more than 5
                                                                At the direction of GSA's Administrator, the Agency
    years old for almost 75 percent of the buildings included
                                                                undertook a comprehensive program aimed at repair-
    in the review, despite a requirement for partial surveys
                                                                ing/replacing all of the transformers containing PCBs in
    each year. Such dated information not only impacted
                                                                GSA-controlled facilities nationwide. This period, the
    the development of accurate Government estimates
                                                                OIG initiated multiregional reviews of controls over
    but also affected the accuracy of contractor bids since
                                                                PCBs in order to assess the impact of this program.
    these data were furnished to bidders.
                                                                PCBs, which are toxic, non-biodegradable, and carcin-
    The audit also concluded that another bid evaluation        ogenic, pose a significant hazard to both human health
    method, comparing historical costs to bid prices, could     and the environment.
    be improved by extending the analysis to include award
    prices established within the last several years. There-    Our reviews generally concluded that the internal con-
                                                                trols established by the regions to assure adherence to
    fore, in our April 10, 1986 report, we recommended that
    the Assistant Regional Administrator, Office of Public      regulations governing the identification, inspection,
    Buildings and Real Property:                                documentation, storage, and disposal of PCBs were
                                                                adequate. However, one regional review disclosed
      •   Establish procedures to ensure that comparisons       instances of:
          are made to contracts with similar types of space
          and levels of cleaning service.                         •   Incorrect reporting on the inventory of PCB trans-
                                                                      formers.
      •   Ensure that workload documents are updated in
          accordance with PBS Handbook P5810.2B.                  •   Leaking transformers that had been overlooked by
                                                                      regional inspectors.
      •   Establish procedures to ensure that historical con-
          tract cleaning costs are maintained for several         •   Leaks not being contained, cleaned up, and re-
          years and used as a basis for evaluating bids.              ported in conformance with regulations.

    The Regional Administrator provided responsive action         •   PCB items not being stored in conformance with
                                                                      regulations prior to disposal.
    plans for implementing the report recommendations.
    Resolution was achieved on September 30, 1986.                •   Transformers that had not been properly regis-
                                                                      tered with local fire departments.
                                                                Accordingly, our May 30, 1986 report recommended
                                                                that the Assistant Regional Administrator, Office of
    Contracting Scheme Results in Three                         Public Buildings and Real Property, establish and im-
                                                                plement internal controls to assure that PCB contami-
    Convictions                                                 nation is minimized by following established
                                                                regulations to properly: identify, report, and mark
    This period, a GSA assistant buildings manager was
                                                                transformers; inspect PCB transformers and prepare re-
    sentenced to 3 years in prison (suspended), placed on
                                                                quired documentation; contain and clean up PCB leaks;
    probation for 1 year, fined $5,000, and ordered to serve
                                                                store and dispose of PCB items; and register PCB trans-
    600 hours of community service after being convicted        formers with local fire departments.
    on two counts of representing the Government in mat-
    ters in which he had a personal financial interest and      Management submitted responsive action plans for im-
    one count of obstruction of justice. A co-conspirator       plementing the report recommendation. Resolution
    Government contractor was sentenced to 6 months of          was achieved on August 4, 1986.




4
Underutilized Leased Space                                    ing to inventory control and the separation of duties in
                                                              the procurement function.
During a nationwide review of GSA's lease enforce-            We offered three recommendations to the Assistant
ment efforts, the OlG identified approximately 29,000         Regional Administrator, Office of Public Buildings and
square feet of essentially vacant space in one building.      Real Property, and four recommendations to the
As a result, the Government was paying annual rental          Assistant Regional Administrator for Administration
of $224,000 for office space that, for several months,        to correct these and other deficiencies. These included
had only been used by the tenant agency for incidental        recommendations to:
storage. The OIG alerted the cognizant GSA official to
this situation on December 10, 1985. Ensuing corre-             Ell   Identify and periodically test existing internal
spondence with the tenant agency culminated in a                      controls and establish additional controls as nec-
January 29, 1986 notification that the space was being                essary.
returned to GSA.
                                                                Ell   Take prompt action to regain control over oper-
Because the lease for this space does not expire until                ating equipment procurements and accountabil-
January 16, 1989 and due to the costs involved, we                    ity for this equipment.
decided to monitor GSA's actions in regard to its utili-
                                                                •     Have the Finance Division review/develop/im-
zation or disposal. We found that as of March 10, 1986
                                                                      plement policies and procedures to ensure proper
the region was considering four options for the space:
                                                                      coding and processing of operating equipment
(1) alter the space using GSA funds and backfill with
                                                                      procurements.
another agencYi (2) negotiate a superseding lease
wherein the lessor makes necessary space alterations          Management's action plans for implementing the rec-
with the costs amortized over the term of the leasei          ommendations in the report were accepted by the OIG.
(3) terminate the lease, in whole or parti or (4) negotiate   Resolution was achieved on July 10, 1986.
a buy-out for the vacant space.
Recognizing that delays in the decision-making process
would limit the options available to GSA and result in        Proposed Lease Extension Questioned
monthly rental payments of over $18,000 for vacant
space, the OIG issued a letter audit report. The April 18,    An OIG pre award advisory review of a proposed 2-year
1986 report recommended that the Assistant Regional           lease extension found that the extension did not
Administrator, Public Buildings and Real Property:            include a termination provision. Since GSA was
  "     Evaluate the alternatives and decide on the most      attempting to relocate the tenant agencies prior to the
        appropriate one.                                      pending lease expiration date, the absence of termina-
                                                              tion rights could have resulted in rental payments of
  Ell   Establish and follow a timetable for implement-       $2.6 million for vacant space. Further, we found that
        ing the decision.                                     the proposed extension contained conflicting terminol-
The Acting Regional Administrator submitted respon-           ogy regarding payments for operating expenses. As a
sive action plans for implementing the report recom-          result, GSA could have been obligated to pay all of the
mendations. Resolution was achieved on July 16, 1986.         operating expenses through the end of the lease, even if
                                                              the space was vacant.
                                                              In the final report dated July 10, 1986, we directed five
Improving Buildings Management                                recommendations to the Assistant Regional Adminis-
Operations                                                    trator, Office of Real Estate and Development, to cor-
                                                              rect these and other deficiencies. Some of the more
This period, the ole completed an overall evaluation of       significant recommendations included giving consid-
one GSA region's Buildings Management Program. The            eration to:
evaluation consisted of concurrent reviews of eight
                                                                ~     Reopening negotiations with the lessor in order to
field offices, followed by an assessment of the opera-
                                                                      seek termination rights, or relocating the tenant
tions of the Buildings Management Division (BMD).
                                                                      agencies nearer to the anticipated September 30,
Individual reports summarizing specific conditions in
                                                                      1987 lease expiration date.
each field office were issued.
                                                                •     Eliminating the conflicting clauses regarding the
In a consolidated report dated April 7, 1986, the OIG
                                                                      operating expense adjustments for vacant space.
informed the Regional Administrator that, while BMD
was generally effective in conducting the Buildings           The Regional Administrator generally concurred with
Management Program, more emphasis needed to be                the recommendations in the draft report. We are awaiting
focused on internal controls, especially those pertain-       the action plans for implementing our reco.mmendations.




                                                                                                                           5
    c.    Significant Preaward Audits                                $1.9 Million of Proposed Rent Increase
                                                                     Questioned
    The OIG's preaward audit program provides informa-
    tion to contracting officers for use in negotiating con-         The orG audited a lease escalation proposal to deter-
    tracts. The pre-decisional, advisory nature of preaward          mine if the proposed operating expenses were allowable
    audits distinguishes them from other audits.                     under the terms of the lease. The proposal submitted by
                                                                     the lessor involved a $3.1 million rent increase over a 5-
                                                                     year lease period.
    $4.3 Million Recommended Cost Avoidance                          In our report dated May 5, 1986, we advised the con-
                                                                     tracting officer that the proposal included operating
    At the request of the Assistant General Counsel,                 costs not subject to escalation as well as unsupported
    Claims and Litigation Division, the orG audited a pro-           costs. We further advised that the use of historical data,
    posal for alleged damages due to Government-caused               rather than the estimates employed by the lessor,
    delays on the construction of a Federal building. The            yielded significantly lower cost figures. Based on these
    contractor claimed that change orders and other Gov-             findings, we recommended adjustments equaling some
    ernment actions extended the contract work period by             $1.9 million.
    290 days, resulting in increased costs of $5 million.
                                                                     We are awaiting the contracting officer's position on
    In our August 7, 1986 audit report, we advised the Assis-        the questioned costs.
    tant General Counsel that costs contained in the con-
    tractor's claim were overstated and/or unallowable. We
    therefore questioned $4,332,957 of the claimed
    amount, primarily in the following cost categories:
    direct labor, materials and equipment, field and home            D. Statistical Highlights
    office overhead, and subcontractor charges.
                                                                     The following table compares OIG activity and accom-
    The claim is currently before the GSA Board of Con-              plishments within PBS to the overall GSA totals for the
    tract Appeals.                                                   period.


                                           Activity                                            PBS           All GSA
         Audit Reports Issued ....................................................... .         172             319
         Recommended Cost Avoidance ........................................... .           $27,800,395     $89,405,192
         Recommended Cost Recovery ............................................ .              $413,256      $6,288,676
         Management Commitments to Avoid Costs ............................... .            $15,883,366     $42,740,658
         Management Commitments to Recover Funds ........................... .                 $597,454      $6,175,923
         Percentage of Recommended Cost
           Avoidance Agreed to by Management .................................. .                49               67
         Percentage of Recommended Cost
           Recovery Agreed to by Management ................................... .                75               75
         Unresolved Audits Older Than 6 Months (Excluding Preawards) ........ .                   3                3
         Implementation Reviews Finding Unimplemented Recommendations ... .                       5                5
         New Investigative Cases ................................................... .           90              183
         Criminal Referrals (Subjects) .............................................. .          30               86
         Civil Referrals (Subjects) .................................................. .          5               14
         Administrative Referrals (Subjects) ............................ " ........... .       121              263
         Suspension/Debarment Referrals (Subjects) ...... " ....................... .            40               72
         Indictments/Informations/Complaints ...................................... .             4               24
         Successful Criminal Prosecutions ......................................... .            10               37
         Civil Settlements/Judgments .............................................. .                              4



    E. Significant Audits From Prior                                 audit recommendations. That office therefore
                                                                     furnished the status information on implementation
       Reports                                                       presented herein.
                                                                     Sixteen audits highlighted in prior Reports to the
                                                                     Congress require action by PBS management before
    Under GSA's audit resolution system, the OIG is                  they are fully implemented. One report is unresolved,
    responsible for ensuring resolution of audit                     six reports are not being implemented in accordance
    recommendations, while the Audit Resolution and                  with established milestones, and the remaining nine
    Internal Controls Division, Office of Administration,            are being implemented in accordance with established
    is responsible for ensuring implementation of resolved           milestones.
6
1. Unresolved Significant Audits                           completed. The remaining three recommendations are
                                                           scheduled for completion on various dates between
                                                           November 1986 and December 1987.
Lease Enforcement
Period First Reported: October 1, 1985 to March 31, 1986   More Improvements Needed in Lease Award
                                                           Procedures
Two OIG reviews found that Government costs under
two leases were significantly higher than expected be-     Period First Reported: October 1, 1984 to March 31, 1985
cause contract specifications were not being met. As of
September 30, 1986, one report had not been resolved;      This consolidated report identified significant problems
implementation of the other report was not proceeding      adversely affecting lease awards in spite of recent program
according to established milestones. This section dis-     improvements implemented by PBS. The report con-
cusses the unresolved audit. The other audit is dis-       tained 20 recommendations; 15 are implemented.
cussed in Section 2.                                       One of the remaining five recommendations, which
The unresolved audit report contained ten recommen-        involves approval of negotiation objectives, was sched-
dations to enhance lease enforcement actions. PBS Cen-     uled for implementation by September 1985. A series of
tral Office requested the cognizant GSA regional           extensions was granted and completion was resched-
officials to revise the action plans to strengthen their   uled for September 1986. As of September 30, 1986, the
response to the report recommendations. When the           Audit Resolution and Internal Controls Division had not
region resubmitted its action plans on August 5, 1986,     received confirmation that it had been implemented.
Central Office again requested a revision to one rec-      Implementation dates for three of the other recommen-
ommendation.                                               dations, which involve price analysis processes, updat-
                                                           ing the leasing handbook, and the development of
                                                           automated solicitations, have been renegotiated to var-
2. Significant Audits Not Being                            ious dates between December 1986 and September
   Implemented According to Established                    1987. Currently, the remaining recomme~dation,
                                                           involving revision of position standards, carries an open
   Milestones                                              due date until the Office of Personnel Management lifts
                                                           its moratorium on revising standards.
Lease Enforcement
                                                           Improvements to the Building Delegations
Period First Reported: October 1,1985 to March 31,1986     Program
Two OIG reviews found that Government costs under
                                                           Period First Reported: April 1, 1984 to September 30, 1984
two leases were significantly higher than expected
because contract specifications were not being met. As     This September 26, 1984 review disclosed the need to
of September 30, 1986, one report, as previously           improve GSA's program for delegating buildings man-
reported, had not been resolved. The other report          agement responsibilities to occupying agencies. The
contained six recommendations to enhance                   report contained 32 recommendations; 28 are
enforcement actions; two are implemented.                  implemented.
The remaining four recommendations were scheduled          Three of the remaining four recommendations, which
for implementation by September 30, 1986. As of that       involve issues of training and certification, were sched-
date, the Audit Resolution and Internal Controls           uled for implementation by September 1986. As of Sep-
Division had not received documentation confirming         tember 30, 1986, the Audit Resolution and Internal
that implementation actions had been completed.            Controls Division had not received documentation that
                                                           the recommendations had been implemented.
                                                           The remaining recommendation, which involves estab-
Fire and Safety Program                                    lishing a separate Delegations Unit, is to be imple-
                                                           mented in October 1986.
Period First Reported: October 1, 1985 to March 31, 1986
This multiregional review of GSA's Fire and Safety
Program advised GSA management that, while many            Opportunities for Savings Exist Through
significant improvements had been made in the              Energy Conservation
program, further enhancements were necessary.
Accordingly, the OIG made eight recommendations;           Period First Reported: October 1, 1983 to March 31, 1984
two are implemented.
                                                           Two OIG reviews identified potential annual savings of
Three of the six unimplemented recommendations             $477,000, mostly available through simple modifica-
were scheduled for implementation by September 30,         tions to equipment and operating procedures at three
1986. As of that date, the Audit Resolution and Internal   Federal buildings. All of the recommendations in one
Controls Division had not received documentation           report are implemented. The other report contained 16
confirming that implementation actions had been            recommendations; 9 are implemented.
                                                                                                                         7
    The seven unimplemented recommendations generally          Excessive Tax Escalation Payments
    involve specific actions to reduce energy consumption
    and better manage energy costs. Implementation action      Period First Reported: April 1, 1985 to September 30,1985
    was scheduled for completion as follows: two recom-
    mendations were due on July 15, 1984; four recommen-       This June 4, 1985 review disclosed that the tax escala-
    dations were due on September 30, 1985; and one            tion clause contained in GSA leases, coupled with some
    recommendation was due on March 31, 1986. Exten-           local taxing practices, resulted in exorbitant Govern-
    sions were granted to September 30, 1986 for all seven     ment tax escalation payments. The report contained
    recommendations. As of that date, the Audit Resolu-        eight recommendations; four are implemented.
    tion and Internal Controls Division had not received       The four unimplemented recommendations generally
    documentation confirming that implementation               involve specific actions to reduce GSA's liability for
    actions had been completed.                                excessive tax escalation payments. Three of the rec-
                                                               ommendations, originally scheduled for completion in
                                                               November 1985, have been renegotiated to October
                                                               1986. The other recommendation, originally due for
    Fire and Life Safety Systems                               implementation in March 1986, has been extended to
                                                               April 1987.
    Period First Reported: October 1,1983 to March 31, 1984
    A series of seven OIG reviews identified deficiencies in
    fire and life safety systems in GSA-controlled space. As   Design Deficiencies at a Federal Building
    of September 30, 1986: implementation had been com-
    pleted on three reports; implementation was overdue        Period First Reported: April 1, 1985 to September 30, 1985
    on one report; and implementation was proceeding           This July 31, 1985 review of the mechanical mainte-
    according to established milestones on the remaining       nance contract at a Federal building identified major
    three reports. This section discusses the overdue audit.   design deficiencies in the lighting and heating systems.
    The three audits being implemented in accordance           None of the three recommendations contained in the
    with established milestones are discussed in the next      report are implemented.
    section.
                                                               The three recommendations involve: (1) determining if
    The overdue report has one outstanding recommenda-         the architect/engineering (A/E) firm was negligent dur-
    tion; it involves determining the extent of contractor     ing design and then taking appropriate administrative
    liability for boiler damage and holding the contractor     action or seeking damages; (2) evaluating alternatives
    responsible for the damage. The recommendation had         for increasing lighting levels and selecting the most
    an open implementation date pending the resolution of      cost-effective option; and (3) determining the cost effec-
    a contractor suit against the Government for payment       tiveness of retrofitting the heating system so that it is
    of workhours. In June 1986 the claim was settled out of    energy efficient. The three recommendations were orig-
    court, resulting in a payment of $9,021 (half of the       inally scheduled for completion in February 1986.
    claimed amount) to the contractor.                         Extensions were granted to May 1986, since PBS was
    As of September 30, 1986, the OIG had neither been         awaiting completion of an A/E Deficiency Committee
    notified whether the settlement had determined con-        report.
    tractor liability nor received a revised action plan.      Based on the Committee report, PBS submitted revised
                                                               action plans to the OIG. Upon reviewing the revised
                                                               action plans, the OIG expressed concern with manage-
                                                               ment's intent relative to the first recommendation.
    3. Significant Audits Being Implemented                    Therefore, on September 16, 1986, we requested that
       According to Established Milestones                     the Commissioner reevaluate planned actions in light
                                                               of our concerns.

    Administration of Cleaning Contracts
                                                               Excessive Energy Consumption
    Period First Reported: October 1,1985 to March 31,1986
                                                               Period First Reported: April 1, 1984 to September 30, 1984
    This OIG review concluded that regional controls over
    cleaning contracts required strengthening. Conse-          This review of the heating and cooling operations at a
    quently, we made seven recommendations to correct          Federal office building identified an estimated $203,000
    the identified deficiencies; six are implemented.          in wasted energy annually. The report contained ten
                                                               recommendations; nine are implemented.
    The remaining recommendation involves the collec-
    tion of overpayments to a GSA contractor. On July 14,      The remaining recommendation involves restoration
    1986, a demand letter was written and an account           of the elevator control program. The recommendation
    receivable was established in the amount of $137,082.      was originally scheduled for completion by October 1,
    As of September 30, 1986, the amount had not been          1984. A series of extensions have been granted and com-
    collected.                                                 pletion is now scheduled for November 30, 1986.

8
Fire and Life Safety Systems                                Implementation of the other three recommendations is
                                                            generally proceeding in accordance with the action
Period First Reported: April 1, 1984 to September 30,1984   plans, although delays have been experienced and
                                                            revised implementation dates have been granted. Full
This consolidated report identified the need for GSA ac-    implementation is now scheduled for various dates
tion to ensure the proper functioning of fire and life      between December 1986 and June 1987.
safety systems in Federal buildings throughout the
country. The report contained ten recommendations;
six are implemented.
                                                            Implementation of the Public Buildings
Three recommendations, which required action by the
regions, were originally due for completion between         Cooperative Use Act
October 1985 and January 1986. Extensions have been
granted and all three are now due in February 1987. The     Period First Reported: October 1, 1982 to March 31, 1983
other recommendation, requiring replacement of a fire       Our review disclosed a number of problems associated
alarm system, is scheduled for implementation by            with GSA's implementation of the Public Buildings
November 1987.                                              Cooperative Use Act of 1976. The report contained 18
                                                            recommendations; 15 are implemented.

Fire and Life Safety Systems                                The remaining three recommendations involve: (1) de-
                                                            velopment of policy on outleasing; (2) assignment of
Period First Reported: October 1, 1983 to March 31, 1984    qualified experts on outleasing projects involving com-
                                                            mercial malls; and (3) development of policy and pro-
A series of seven OIG reviews identified deficiencies in    cedures for outleasing of commercial malls.
fire and life safety systems in GSA-controlled space.       Recommendation (1) was originally due for implemen-
Three reports were fully implemented as of Septem-          tation in August 1983. The second and third recom-
ber 30, 1986; one report, as previously reported, con-      mendations were originally scheduled for completion
tains a recommendation that is not being implemented        in May and September 1983, respectively. At least nine
in accordance with the established milestone. The           successive extensions have been granted on each rec-
remaining 3 reports contained 11 recommendations; 8         ommendation. All three recommendations are now
are implemented.                                            scheduled for completion in November 1986.




                                                                                                                       9
     SECTION III-FEDERAL SUPPLY SERVICE

     The Federal Supply Service (FSS) operates a Govern-          The ole completed 85 investigative cases involving FSS
     ment-wide service and supply system that contracts           programs, operations, or employees. Notably, one inves-
     for and distributes billions of dollars worth of supplies,   tigation resulted in the conviction of a GSA contracting
     materials, and services for customer agencies each           firm, its president, and its accountant on bribery charges.
     year. FSS also controls GSA's personal property pro-         The accountant offered two GSA employees $500 each to
     gram. In the second half of FY 1986, FSS obligated           submit a falsified facility report.
     approximately $82.6 million in direct operating ex-
     pense appropriations. Estimated sales through the            Another investigation resulted in the conviction of a
     General Supply Fund during the same period were              firm and its sales manager for conspiring to defraud the
     almost $1.3 billion.                                         Government and submitting false statements. The firm
                                                                  had substituted inferior products in medical tool kits to
     Consistent with this level of activity, the OIG ex-          increase profits.
     pended some 36,679 direct staffhours pursuing 312
     audit and investigative assignments. These statistics
     reflect 26 percent of total OIG direct staffhours and
     approximately 30 percent of all work assignments.            B. Significant Audits and
                                                                     Investigations
     A. Overview of OIG Activity                                  This section summarizes significant internal audits
                                                                  and investigations dealing with FSS. Significant pre-
     In a series of internal audit reports issued this period,    award contract audits are presented in Section C.
     the ole presented its findings in a variety of FSS pro-
     gram areas, including quality assessment, store opera-
     tions, contract delivery services, and contract airline      Transportation Audit Program
     services. Three reports were especially noteworthy:
                                                                  GSA's Office of Transportation Audits (OTA) is respon-
       ..   Evaluation of the transportation audit program        sible for: (1) auditing the rates in transportation bills
            found that despite the many recent improve-           paid by all Government agencies for both freight and
            ments inaugurated by management, opportuni-           passenger services worldwide, and (2) recovering carrier
            ties for increased effectiveness still existed.       overcharges identified by these audits. Either OTA staff
            Notably, we concluded that audit timeliness           members or commercial transportation audit firms
            could be improved and the repayment period            under contract to GSA perform the audits. During
            allowed contractors could be shortened.               FYs 1982 through 1985, OTA identified $114.2 million
       ..   Analysis of contractor billing practices found that   in carrier overcharges and collected $90.6 million.
            Federal agencies were being billed at differing       This period, an OIG review found that aT A officials
            rates for overnight delivery of small packages. We    have been implementing actions to improve the effi-
            attributed the problem to ambiguous contract          ciency and effectiveness of the transportation audit pro-
            language.                                             gram over the past several years. Such actions included
       ..   Review of an industrial products store revealed in-   initial development of an early detection program and
            accurate inventory counts, missing stock, and ex-     revision of the Federal Property Management Regula-
            cessive on-hand stock. These problems stemmed         tions to allow assessment of interest on certain types of
            in part from a computerized inventory system          overcharges. In addition, in response to an earlier OIG
            that was not fully operational.                       report, which encouraged the expansion of the reim-
                                                                  bursable contract auditing program, management pro-
     ole contract coverage of FSS continued to emphasize          posed, and Congress approved, the payment of contract
     pre award reviews, especially of multiple award sched-       audit firms from the overcharges recovered. This action
     ule contracts. We issued 38 contract audits recom-           returned an estimated $9.9 million to the Treasury dur-
     mending over $11.6 million in cost avoidances and            ing FY 1986.
     recoveries. Notably, utilization of information con-
     tained in OrG reports resulted in:                           Despite these many improvements, the OIG concluded
                                                                  that additional actions are needed to further enhance
       ..   The Department of Justice negotiating an agree-       aTA's capability to identify and recover overcharges.
            ment yielding a $6 million cost avoidance on a        Therefore, in our May 2, 1986 report, we directed eight
            contractor claim.                                     recommendations to the Commissioner, FSS. Some of
                                                                  the more significant recommendations included:
       ..   FSS management successfully negotiating $5.2 mil-
            lion in pricing concessions on a copying equip-         •   Improve the timeliness of the transportation au-
            ment contract.                                              dit process.


10
  •   Reduce the time period allowed carriers to refund      We also found that contract terms used to define the
      overcharges before offset actions are initiated.       covered service area did not clearly specify if certain
                                                             destinations were in the area or if the contractor pro-
  •   Provide procuring agencies with additional feed-
                                                             vided full coverage to the entire service area. Conse-
      back regarding the results of transportation audits.
                                                             quently, Federal customers had difficulty determining
We estimate that implementation of our recommen-             whether a planned shipment was subject to the GSA
dation to improve audit timeliness will result in cost       contract.
avoidances of $4.1 million. In addition, during the
                                                             In our June 16 and August 18, 1986 audit reports, the
course of our review, OTA took action to assess interest
                                                             OIG offered six recommendations to the Commis-
on all identified carrier overcharges. We estimate that
                                                             sioner, FSS, to both correct these deficiencies and im-
this action will result in an additional $1.8 million in
                                                             prove future solicitations for express small package
interest income.
                                                             delivery services. The more significant recommenda-
The Commissioner, FSS, submitted responsive action           tions included:
plans for implementing the report recommendations.
                                                               •   Reach an agreement with the contractor on the
Resolution was achieved on July 28, 1986.
                                                                   service areas covered at the contract rate.
                                                               •   Issue specific guidance to Federal agencies iden-
Bribery Convictions                                                tifying areas covered at the contract rate, once ser-
                                                                   vice areas have been defined.
On May 27, 1986, an acoustical partitions firm under
                                                               •   Conform to standard industry terminology and
contract to GSA, the firm's president, and a certified
                                                                   ensure that contract language is consistent
public accountant (CPA) were sentenced in U.S. Dis-
                                                                   throughout the contract.
trict Court after pleading guilty to bribery charges. The
company was fined $2,000; its president was sentenced          •   Define service areas by zip code in future
to 1 year in prison (suspended), placed on probation for           solicitations.
2 years, and fined $2,000. The CPA was sentenced to 1
year in prison (suspended), placed on probation for 2        The Commissioner, FSS, agreed with the recommen-
years, fined $5,000, and ordered to perform 100 hours of     dations in the reports and submitted responsive action
community service.                                           plans. Resolution was achieved on August 12 and
                                                             September 30, 1986, respectively.
The convictions resulted from an OIG investigation ini-
tiated when a GSA quality assurance specialist alleged
that the CPA offered him and his supervisor envelopes        Hardware Firm Convicted
containing $500. In return, the employees were to sub-
mit the favorable plant facilities report the company        On September 12, 1986, a medical hardware firm paid
needed to obtain a GSA contract.                             $250,000 in fines and restitution after pleading guilty to
The three defendants have also been suspended from           charges of conspiring to defraud the Government and
conducting business with the Government. Govern-             submitting false statements. In addition, the firm's
ment-wide debarment actions are currently pending.           Government sales manager pled guilty to the charge of
                                                             conspiracy on September II, 1986. His sentencing is
                                                             scheduled for October 1986.
Ambiguous Contract Terminology                               The court actions stemmed from an OIG investigation
                                                             disclosing that the firm failed to supply GSA the same
GSA procures express small package pickup and deliv-         equipment for which it contracted. Investigators found
ery services on behalf of customer agencies in order to      that the firm, in order to increase profits, deviated from
maximize the savings available due to volume. This           the equipment line approved by GSA via preproduction
period, the OIG initiated two reviews after being ad-        samples and substituted inferior, less costly equipment
vised by GSA officials that the contractor was charging      in its medical tool kits. In order to disguise the substi-
Federal agencies the commercial delivery rate instead        tution, the firm then submitted over 60 falsified test re-
of the contract rate.                                        ports to GSA quality control officials.
Our reviews concluded that ambiguous contract lan-           Further court actions are anticipated.
guage allowed differing interpretations of contract
terms by the Government and the contractor; inhibited
user agency determinations as to how and when to use         Operation of an Industrial Products Store
the contract; and rendered the contract difficult to en-
force. For example, the contractor interpreted "next day     This period, the OIG reviewed operations at an indus-
service" to mean that the contract rate of $3 was            trial products store containing an inventory of 5,000
charged when the contractor delivered the package, but       items valued in excess of $3 million. We concluded that
the commercial rate of $25 was billed when the package       internal controls required strengthening in several ma-
was forwarded to another company for next day deliv-         jor areas. Notably, we found that accountability would
ery. The Government held that it should be billed at the     be greatly enhanced through full implementation of the
contract rate regardless of who delivered the package.       store's computerized inventory system.

                                                                                                                           11
     Despite installation of a system providing line item and
     perpetual inventory capabilities, we found that not all
                                                                  c.    Significant Preaward Audits
     data relating to the purchase and receipt of new!            The OIG's preaward audit program provides informa-
     replacement stock had been entered into the system.          tion to contracting officers for use in negotiating con-
     Moreover, the reliability of the inventory data in the       tracts. The pre-decisional, advisory nature of preaward
     system was undermined by the entry of erroneous sales        audits distinguishes them from other audits.
     data. These inaccuracies resulted from manual entry of
     stock numbers rather than reliance upon the electronic
     wands that automatically input stock numbers.
     We also found that the last acceptable wall-to-wall in-
     ventory of store stock had been performed in FY 1981,        $6 Million Avoided on Claim
     even though FSS regulations require a yearly inventory.
     This finding, coupled with those relating to the auto-       Based on a request from the Department of Justice, the
     mated system, manifested themselves in a series of           OIG audited a proposal for damages allegedly arising
     stock-related problems including missing or otherwise        from: (1) GSA's breach of duty, and (2) Government
     unaccounted for stock items, excessive stock levels,         breach of contract. The contractor, which provided
     and inaccurate inventory levels.                             computer-based educational services, claimed that
                                                                  GSA had provided erroneous estimates on the volume
     In our August 27, 1986 report, the OIG offered six rec-      and location of user groups during the solicitation proc-
     ommendations to the Regional Administrator and six-          ess and that Federal agencies had violated the manda-
     teen recommendations to the Director, Customer               tory use clause in the contract. The claim reached the
     Services Bureau, to correct these and other deficiencies.    Department of Justice when the firm appealed the GSA
     The more significant recommendations included:               contracting officer's decision to deny the claim in full.
       •   Enter all purchase and receipt-of-goods data into      The November 29, 1985 audit report advised the De-
           the automated inventory system.                        partment of Justice that the firm's refusal to provide
       •   Require cashiers to use electronic wands for all       supporting documentation for the $6.7 million claim
           sales.                                                 precluded evaluation of its appropriateness. The audi-
                                                                  tors further advised that, based on an analysis of avail-
       •   Establish a time-phased plan to ensure that line       able records, $6.6 million of the claimed amount should
           item accountability is established within the auto-    be avoided.
           mated system prior to the next physical inventory.
                                                                  This period, the Department of Justice utilized this
       •   Fix target dates for establishing replenishment re-    information to negotiate an agreement whereby the
           view points and economic order quantities, after       contractor received $695,000 in full settlement of As
           the basic automated inventory is functional.           $6.7 million claim.                              .'"
       •   Conduct required annual physical inventories
           and periodic spot checks.
     We are awaiting the action plans for implementing the
     report recommendations.                                      $5.2 Million Avoided on Copying Equipment
                                                                  On July 1, 1986, GSA management committed itself to
     False Statements Convictions                                 avoid expenditures of $5.2 million after successfully ne-
                                                                  gotiating pricing concessions in that amount from a
     On September 19, 1986, a GSA contractor for adhesive         copying equipment firm. The commitment stemmed
     products and the firm's president each pled guilty to        from an OIG audit of the firm's $19.4 million pricing
     two counts of false statements. As part of the plea agree-   proposal for the purchase, rental, maintenance, and re-
     ment, the subjects agreed to pay $29,051 in restitution      pair of copying equipment. The audit concluded that
     to the Government.                                           the firm's discount and sales information was accepta-
                                                                  ble for negotiations purposes, but inadequate in certain
     Following an allegation from a GSA quality assurance         respects.
     specialist, the OIG investigated the validity of test
     reports submitted by the company. The investigation          Specifically, the September 20, 1985 report advised the
     revealed that the firm submitted falsified, fraudulent,      contracting officer of commercial discounts not dis-
     and forged test results regarding the characteristics of     closed in the firm's offer. These pricing concessions re-
     its adhesive tape.                                           sulted in more favorable terms than those offered to
                                                                  GSA. We further advised the contracting officer that
     Both subjects were suspended by GSA i debarment ac-          the rental rates offered the Government were not based
     tions are being initiated.                                   on commercial market rates.




12
$2.6 Minion Avoidance Recommended                                commercial customer in the same category. Accord-
                                                                 ingly, the auditor applied the 22.5 percent difference to
The OIG evaluated discount schedule and marketing                the estimated sales, resulting in a recommended cost
data submitted in response to a GSA solicitation for the         avoidance of $2.6 million.
purchase of lettering devices and tape sign machinery.
                                                                 The contracting officer agreed with the report and res-
Estimated sales under the contract are $11.4 million.
                                                                 olution was achieved on August 6, 1986. Negotiations
In our June 26, 1986 audit report, we advised the con-           are currently being conducted.
tracting officer of commercial discounts not disclosed
in the firm's offer to GSA. We further advised that the
firm's proposed new marketing policy, wherein all Gov-
ernment sales would originate through a dealer net-               D. Statistical Highlights
work, would result in Government discount rates 22.5
percent lower than those offered to the firm's most fa-           The following table compares OIG activity and accom-
vored customer. Under the terms of such a contract,               plishments within FSS to the overall GSA totals for the
GSA is entitled to discounts at least equal to the best           period.

                                       Activity                                             FSS         All GSA
     Audit Reports Issued ....................................................... .          51            319
     Recommended Cost Avoidance ........................................... .           $15,714,535    $89,405,192
     Recommended Cost Recovery ............................................ .               $47,522     $6,288,676
     Management Commitments to Avoid Costs ............................... .            $20,583,308    $42,740,658
     Management Commitments to Recover Funds ........................... .               $1,212,309     $6,175,923
     Percentage of Recommended Cost
       Avoidance Agreed to by Management .................................. .               88               67
     Percentage of Recommended Cost
       Recovery Agreed to by Management ................................... .               96               75
     Unresolved Audits Older Than 6 Months (Excluding Preawards) ........ .                                   3
     Implementation Reviews Finding Unimplemented Recommendations ... .                                       5
     New Investigative Cases ................................................... .          66              183
     Criminal Referrals (Subjects) .............................................. .         48               86
     Civil Referrals (Subjects) ................................................... .         8              14
     Administrative Referrals (Subjects) ........................................ .        114              263
     Suspension/Debarment Referrals (Subjects) .............................. .             30               72
     Indictments/Informations/Complaints ...................................... .           19               24
     Successful Criminal Prosecutions ......................................... .           25               37
     Civil Settlements/Judgments ............................................... .           3                4


Eo Significant Audits From Prior                                 The remaining recommendation, involving the devel-
                                                                 opment of monitoring and followup procedures, was
   Reports                                                       scheduled for implementation by August 1986. This
                                                                 date has been renegotiated to January 1987.
According to GSA's audit resolution system, the Audit
Resolution and Internal Controls Division, Office of             Stronger Internal Controls Needed in
Administration, is responsible for ensuring implemen-            Customer Supply Center Automated System
tation of resolved audit recommendations. Therefore,
that office furnished the status information on imple-           Period First Reported: October 1, 1984 to March 31, 1985
mentation presented herein.
                                                                 This review of the Customer Supply Center automated
Two significant audits from prior Reports to the Con-            system identified internal control weaknesses that
gress are unimplemented. Both are being implemented              could result in improper and undetected changes to
in accordance with established milestones.                       master files; unauthorized entry to the system, and in-
                                                                 adequate inventory control. The report contained eight
                                                                 recommendations; seven are iJ?plemented.

Excessive Inventory Storage Costs                                The remaining recommendation requires preparation
                                                                 and approval of a clearly defined and documented sys-
Period First Reported: October 1, 1985 to March 31, 1986         tems development plan. It was originally due for imple-
                                                                 mentation by November 1985; an extension to May
This OIG review found that improved policies and pro-            1986 was then granted. Currently, the recommendation
cedures for removing excess inventory from the depot             carries an open due date in order to accommodate an on-
system could reduce storage costs by approximately               going study of the Customer Supply Center's computer
$200,000. Accordingly, we made two recommenda-                   system requirements. A new completion date will be
tions; one is implemented.                                       established upon issuance of the study report.              12
     SECTION IV-INFORMATION RESOURCES
     MANAGEMENT SERVICE

     The Information Resources Management Service (IRMS)         OIG auditors found that the firm sold items to its com-
     coordinates and directs a comprehensive Government-         mercial customers during the contract periods at dis-
     wide program for managing and procuring automated           counts higher than those disclosed to GSA during
     data processing (ADP) and telecommunications equip-         negotiations and without offering equivalent reduc-
     ment and services. In the second half of FY 1986, IRMS      tions to Government purchasers. GSA contracts specif-
     obligated an estimated $14.4 million in direct operat-      ically provide that the Government is entitled to
     ing expense appropriations. Estimated sales through         equivalent price reductions if, after negotiations, the
     the Federal Telecommunications Fund and the ADP             contractor reduces its prices or grants special discounts
     Fund during the same period exceeded $522 million.          to other customers. In addition, the auditors concluded
                                                                 that the firm had not submitted accurate, complete,
     Collectively, the OIG expended some 26,876 direct           and current discount data during the solicitation proc-
     staffhours pursuing 127 audit and investigative assign-     ess, resulting in GSA's negotiating significantly higher
     ments. These figures reflect 19 percent of total OIG        prices than necessary.
     direct staffhours and some 12 percent of total work
     assignments.                                                Relative to the overbillings, the auditors found that the
                                                                 firm's billing systems did not possess the controls nec-
                                                                 essary to ensure timely price adjustments. Conse-
                                                                 quently, Government purchasers did not receive all of
     A. Overview of DIG Activity                                 the discounts to which they were entitled.
     This period, OIG audit coverage of IRMS primarily           OIG auditors originally recommended a cost recovery of
     focused on its contracting activities, particularly pre-    $2.9 million, based on contract sales of $208 million.
     award audits of multiple award schedule contracts. We
     issued 61 contract audit reports recommending over
     $21 million in cost avoidances and $5.8 million in
     recoveries. Notably, IRMS contracting officers utilized
     the information contained in OIG postaward audit
     reports to negotiate two recoveries of $2.2 million each
     from GSA contractors.                                       Contract Services Program
     Internal coverage of IRMS programs and functions
     assisted IRMS managers in taking action to:                 The GSA Contract Services Program (CSP), which is
                                                                 executed by Technical Services Branches in the GSA
       •   Enhance the overall effectiveness of the Contract     regions, procures ADP technical support services
           Services Program in supporting customer agen-         for customer agencies. In FY 1985, CSP was allocated
           cies' ADP needs.                                      $149 million from the ADP Fund for operating
       •   Prevent erroneous payment of State sales tax on       expenses. Estimated FY 1986 sales were approximately
           telecommunications equipment procurements.            $400 million.

     OIG investigators completed 9 cases this period involv-     This period, the OIG completed reviews of CSP opera-
     ing IRMS programs, operations, and employees; most          tions in five regions as well as Central Office. These
     involved white collar crimes.                               reviews identified instances of uneconomical procure-
                                                                 ments; noncompliance with policy and regulations;
                                                                 inaccurate and unreliable financial and management
                                                                 information; and mismanagement of personnel
     B. Significant Audits                                       resources. The OIG issued individual reports summa-
                                                                 rizing specific conditions in each region and an interim
     This section summarizes significant internal and post-      report on grade and position classifications within the
     award audits dealing with IRMS operations. Significant      CSP.
     preaward contract audits are presented in Section C.        In a consolidated report dated September 19, 1986, we
                                                                 informed the Commissioner, IRMS, that the common
                                                                 weaknesses in regional CSP operations are attributable
     $2.2 Million Recovered                                      to:
     On July II, 1986, an IRMS contracting officer negoti-         •   An ineffective system of internal controls.
     ated the recovery of almost $2.2 million from a multi-
                                                                   •   Inadequate customer market surveys.
     ple award schedule supplier of ADP equipment. The
     recovery resulted from two OIG postaward audits dis-          •   The absence of a work measurement and direct
     closing that the contractor violated the price reduction/         costing system that would assure individual
     defective pricing clauses in its GSA contracts and                accountability, measure efficiency, and bill cus-
14   overbilled contract users.                                        tomers for all direct costs.
We therefore recommended that the Commissioner,            Erroneous Payment of Sales Tax
IRMS:
  e   Develop an effective internal control system in      Under the Purchase of Telephones and Services (POTS)
      accordance with OMB Circular A-123 and adopt         program, GSA is awarding contracts for telecommuni-
      procedures to ensure that controls function as       cations equipment and services in each of its regions
      intended.                                            nationwide. In conjunction with this effort, the OIG is
                                                           evaluating the reasonableness and fairness of the con-
  e   Make improvements to the present CSP contract-       tract prices.
      ing process regarding the validity of customer
                                                           During a review in one GSA region, the OIG disclosed
      market surveys, technical evaluations of contract
                                                           that a contracting officer increased equipment prices by
      offerors, and decisions on contract renewal
      options.                                             5 percent to cover the cost of State sales tax. Such an
                                                           adjustment was erroneous because the Federal Govern-
  e   Investigate alternative CSP contracting methods      ment and contractors selling to the Government are
      and adopt any found to more effectively meet pro-    exempt from State and local taxes in most instances.
      gram needs.                                          We estimated that $261,848 would be saved by with-
                                                           drawing the price adjustment.
  e   Implement a workload measurement system to
      assure individual accountability and measure         Because this finding carried nationwide implications,
      program efficiency, and ensure that CSP's billing    the OIG issued a September 29, 1986 report to the Com-
      method for recovering direct program costs com-      missioner, IRMS, recommending that:
      plies with the Comptroller's Handbook.
                                                             e   A memorandum be issued to all contracting offi-
We estimate that implementation of our recommen-                 cers reminding them that, in most cases, the Gov-
dations will result in savings of approximately $11 mil-         ernment and contractors selling to the
lion. About $8.2 million could be derived from the               Government are exempt from State and local
proper application of labor rates and skill levels based         taxes.
on Government requirements. Approximately $2.8 mil-
lion could be realized by eliminating ten supervisory
                                                             e   Contracting officers be instructed to review POTS
                                                                 contracts to ensure that appropriate tax exempt
positions and downgrading others.
                                                                 clauses have been incorporated.
The Commissioner generally agreed with the recom-
                                                             e   If a contract is found not to include a tax exempt
mendations in the draft report. Weare awaiting the
                                                                 clause, action be taken to recover any overpay-
action plans for implementation.
                                                                 ments and modify the contract.
                                                           The Commissioner tentatively agreed with the findings
$2.2 Million Recovered From Contractor                     and recommendations. We are awaiting action plans for
                                                           implementation.
On September 25, 1986, an IRMS contracting officer
negotiated an agreement with a GSA radio equipment
supplier whereby the firm would refund $2.2 million to
the Government. The full amount of the refund has
already been paid.
                                                           c.    Significant Preaward Audits
                                                           The OIG's preaward audit program provides information
The recovery followed two OIG postaward audits. One        to contracting officers for use in negotiating contracts.
audit found that the discount data in the firm's price     The pre-decisional, advisory nature of preaward audits
proposal were not accurate, current, and complete. GSA     distinguishes them from other audits.
relied upon these data and negotiated a contract that
failed to give the Government discounts at least equal
to those of the firm's best commercial customers.
                                                           $4.9 Million Avoidance Recommended
The other audit found that the firm had understated the
price reduction amount due to the Government on            The Ole evaluated a contract renewal offer submit-
another GSA contract. Our review of the refund com-        ted by a supplier of general purpose ADP equipment
putation revealed that the firm had grouped unrelated      and software. Estimated sales under the contract are
orders and used list prices to determine maximum           $350 million.
order thresholds j identified commercial customers as
State or local governments and excluded them from the      In our August 20, 1986 audit report, we advised the con-
computationj and made calculation errors.                  tracting officer of the firm's new discount schedule for
                                                           commercial end-user customers. Since it raised the
Ole auditors originally recommended cost recoveries of     maximum attainable discount, the auditors recom-
$2.3 million, based on sales of $210 million.              mended that the contracting officer obtain discounts




                                                                                                                       15
     equivalent to those offered to the best commercial cus-          In the September 17, 1986 audit report, we advised the
     tomer with similar annual dollar volume. Obtaining               contracting officer of commercial discounts not dis-
     the higher discounts would result in an estimated                closed in the firm's offer to GSA. We further advised
     $4.9 million cost avoidance.                                     that the proposed Lease to Ownership Plan rates were
                                                                      overstated since they were applied to the firm's list
     The contracting officer agreed with our position and the         prices instead of the Government's purchase prices.
     report was resolved on September 17, 1986. Negotia-              Based on these findings, we recommended a $4.9 mil-
     tions are currently underway with the contractor.                lion cost avoidance.
                                                                      We are awaiting the contracting officer's position on
                                                                      the questioned costs.
     Preaward Questions $4.9 Million of Proposed
     Costs
                                                                      D. Statistical Highlights
     The OIG evaluated discount schedule and marketing
     data submitted in response to a GSA solicitation for             The following table compares OIG activity and accom-
     general purpose ADP equipment and software. Esti-                plishments within IRMS to the overall GSA totals for
     mated sales under the contract are $20 million.                  the period.


                                            Activity                                            IRMS          All GSA
          Audit Reports Issued ....................................................... .          69             319
          Recommended Cost Avoidance ........................................... .           $32,091,553     $89,405,192
          Recommended Cost Recovery ............................................ .            $5,825,344      $6,288,676
          Management Commitments to Avoid Costs ............................... .             $6,273,984     $42,740,658
          Management Commitments to Recover Funds ........................... .               $4,366,160      $6,175,923
          Percentage of Recommended Cost
            Avoidance Agreed to by Management .................................. .               77                67
          Percentage of Recommended Cost
            Recovery Agreed to by Management ................................... .               70               75
          Unresolved Audits Older Than 6 Months (Excluding Preawards) ........ .                                   3
          Implementation Reviews Finding Unimplemented Recommendations ... .                                       5
          New Investigative Cases ................................................... .            7             183
          Criminal Referrals (Subjects) .............................................. .           2              86
          Civil Referrals (Subjects) ................................................... .         1              14
          Administrative Referrals (Subjects) ........................................ .          10             263
          Suspension/Debarment Referrals (Subjects) .............................. .               1              72
          Indictments/Informations/Complaints ...................................... .                            24
          Successful Criminal Prosecutions ......................................... .                            37
          Civil Settlements/Judgments ............................................... .                            4



     E. Significant Audits From Prior                                 1. Significant Audits Not Being
                                                                          Implemented According to Established
        Reports                                                           Milestones
     According to GSA's audit resolution system, the OIG
     is responsible for ensuring resolution of audit recom-
     mendations, while the Audit Resolution and Internal
                                                                      Telecommunications Systems Management
     Controls Division, Office of Administration, is respon-          Period First Reported: October 1, 1985 to March 31, 1986
     sible for ensuring implementation of resolved audit
     recommendations. That office therefore furnished the             This OIG review concluded that IRMS needed to
     status information on implementation presented                   strengthen its oversight role relative to Government tel-
     herein.                                                          ecommunications systems. We therefore made 12 rec-
                                                                      ommendations; 5 are implemented.
     Three IRMS audits highlighted in prior Reports to the
     Congress are unimplemented. One report is not being              Four of the seven unimplemented recommendations,
     implemented in accordance with established mile-                 which generally involve actions to improve agency pro-
     stones; the remaining two are being implemented in               curements of telecommunications systems, were
     accordance with established milestones.                          scheduled for implementation by September 30, 1986.


16
As of this date, the Audit Resolution and Internal Con-    The recommendation is scheduled for implementation
trols Division had not received documentation con-         by October 3D, 1986.
firming that they had been implemented. The
remaining three recommendations are scheduled for
implementation by December 31, 1986.                       Improvements Needed in Computer Security
                                                           Program
2. Significant Audits Being Implemented                    Period First Reported: October 1, 1983 to March 31,1984
   According to Established Milestones                     This March 3D, 1984 review found that GSA computer
                                                           systems are highly susceptible to loss through fraud,
Teleprocessing Services Program                            misuse, and disaster, especially fire. Accordingly, we
                                                           made 20 recommendations for corrective action; 19 are
Period First Reported: October 1, 1985 to March 31, 1986   implemented.
This Ole review found that IRMS needed to strengthen       Action has been initiated to implement the last rec-
its oversight role over payments for commercial data       ommendation, involving inclusion of concise security
processing services. Accordingly, we made one recom-       requirements in all contractual agreements for ADP
mendation to assure verification of invoices by Federal    services. Final implementation action is scheduled for
agencies.                                                  completion by October 31, 1986.




                                                                                                                     1
     SECTION V-OTHER GSA COVERAGE

     Other GSA services and staff offices comprised the fo-     nationwide for long distance calls placed on Agency-
     cus for the remainder of the OIG's efforts this period.    provided phones.
     The OIG devoted approximately 11,244 direct staff-
     hours pursuing 83 audit and investigative assignments      As part of this review, we analyzed a statistical sample
     within these other areas of GSA. These figures reflect 8   of calls placed on GSA-controlled telephones in head-
     percent of total OIG direct staffhours and approxi-        quarters and one region over a three-month period. This
     mately 8 percent of all work assignments.                  analysis found that 39 percent ofFTS off-network calls
                                                                (FTS to non-FTS telephone numbers) and 26 percent of
                                                                commercial long distance calls were for unofficial pur-
                                                                poses. The auditors estimated that the cost to GSA for
     A. Overview of DIG Activity                                unofficial calls, including unproductive employee
                                                                time, would exceed $1 million annually if these per-
     OIG coverage of the Federal Property Resources Ser-        centages applied to an entire year.
     vice, the Office of the Comptroller, the Office of         We attributed the high rate of unofficial calls to ineffec-
     Administration, and other GSA organizations con-           tive management controls over detecting and deterring
     sisted primarily of internal management reviews.           this unauthorized usage. For example, we identified
     These reviews resulted in findings and recommenda-         that:
     tions in areas such as Federal telecommunications
     utilization, computer and office automation (OA)             •   FTS intercity reports, which detail long distance
     equipment accountability, Government-owned vehicle               calls, were not being routinely distributed to GSA
     utilization, in-house awards under OMB Circular A-76,            components for verification.
     imprest funds, and stockpile operations. The OIG also        •   Commercial long distance calls were not always
     provided extensive technical assistance and advice rel-          verified and certified for payment as required.
     ative to the implementation of the Federal Managers'
     Financial Integrity Act (FMFIA).                             •   Management did not establish specific guidance
                                                                      on processing reimbursements for unofficial calls.
     Three especially noteworthy reviews aided manage-
     ment in taking action to improve:                            •   Employee awareness of proper telecommunica-
                                                                      tions usage needed improvement.
       ..   Controls over the use of the Federal Telecom-
            munications System.                                 In our September 22, 1986 audit report, we directed five
                                                                recommendations to the Deputy Regional Adminis-
       .. Accountability over Agency-owned computer and         trator to correct deficiencies. The more significant
          OA equipment.                                         recommendations included:
       •    GSA's process for implementing Section 2 of the       •   Verify and certify for payment all commercial long
            FMFIA.                                                    distance billings on a monthly basis and implement
     The OIG also completed 25 investigations involving               procedures contained in the GSA Internal Telecom-
     the personnel, programs, and operations of these other           munications Management Handbook.
     GSA areas.                                                   •   Establish an interim program in the region to de-
                                                                      tect and deter unofficial use of FTS service, in-
                                                                      cluding sample verifications of calls, until a
                                                                      nationwide program is implemented.
     B. Significant Audits                                        •   Increase employee awareness of proper telecom-
                                                                      munications use by publicizing GSA policies,
     This section summarizes significant internal audits in-          penalties for misuse, and enforcement activities.
     volving the programs and operations of the remaining
     GSA services and staff offices. Significant preaward       The Regional Administrator generally agreed with the
     contract audits are presented in Section C.                recommendations in the draft report. We are awaiting
                                                                action plans for implementing the recommendations.

     Telecommunications Utilization
                                                                Accountability Over Automated Equipment
     As part of a PCIE review of Federal Telecommunica-
     tions System (FTS) utilization (see Section VIII), the     This period, the OIG evaluated GSA's system of ac-
     OIG evaluated GSA's management controls over               countability over Agency-owned computer and OA
     Agency utilization of long distance telephone services.    equipment. The review was performed at Central
     During FY 1985, GSA expended approximately $8 million      Office and in four GSA regions.



18
We found that current procedures do not assure that        materials, instructions and forms, milestone dates, and
equipment is properly accounted for and safeguarded.       a proposed simplified method for performing reviews.
Among other things, the review disclosed that the in-
                                                           In a report dated September 24, 1986, we recommended
ventory data base, which is used to manage and control
                                                           to the Associate Administrator for Administration that
computer and OA hardware, was not current or com-
                                                           the FMFlA staff take a more active role in the Agency's
plete because:
                                                           program by:
  .. Procedures designed to assure entry of newly pro-
                                                             ..   Providing improved quality controls;
     cured equipment were not subject to independent
     controls.                                               .. Keeping top-level management apprised of review
                                                                status; and
  .. Revisions were not entered on a timely basis.
                                                             .. Ensuring that performing officials receive suffi-
  .. Information used to update the inventory was not
                                                                cient training.
     certified by responsible personnel.
                                                           Management agreed with the conclusions in the report,
We also found that GSA's accountable officers, who are
                                                           noting that many changes have already been accom-
charged with controlling equipment in individual
                                                           plished. Management's response to the final report is
offices, had not received adequate training before
assuming their duties.                                     due November 24, 1986.
                                                           We will continue to work with management as they at-
In our June 4, 1986 final report, we offered five recom-
                                                           tempt to implement the Government-wide changes
mendations to the Associate Administrator for Admin-
                                                           brought about by the revisions to OMB Circular A-123.
istration and one to the Commissioner, IRMS, to
correct these and other deficiencies. Some of the more
significant recommendations included:
  .. Take appropriate action to assure that the com-       c.     Significant Preaward Audits
     puter/OA inventory is systematically updated for
     all equipment procurements.                           The OIG's preaward audit program provides informa-
                                                           tion to contracting officers for use in negotiating con-
  .. Amend GSA Order OAD P 7800.3 to ensure that           tracts. The pre-decisional, advisory nature of preaward
     documentation is maintained to support all            audits distinguishes them from other audits.
     changes to the computer/OA inventory data base
     and to require certification of changes to the in-
     ventory by the accountable officers.                  $10 Million Avoidance Recommended
  .. Establish a formal training program for the ac-
     countable officers.                                   The OIG evaluated an $89 million pricing proposal sub-
                                                           mitted in response to a GSA solicitation for ferroman-
Management submitted responsive action plans for five      ganese conversion services. The solicitation resulted
recommendations; we are working closely with the As-       from a 1982 Presidential Directive mandating the con-
sociate Administrator for Administration to resolve the    version of National Defense Stockpile manganese ore
sixth.                                                     into high-carbon ferromanganese.
                                                           In the September 15, 1986 audit report, we advised the
Federal Managers' Financial Integrity Act                  contracting officer that costs contained in the contrac-
                                                           tor's proposal were overstated andlor unallowable. We
This period, the OIG focused considerable effort on        therefore questioned $10 million in the following cost
reviewing GSA's process for implementing Section 2 of      categories: ore conversion, outloading, transportation,
the FMFlA. In a retrospective look at the internal con-    handling, and risk contingency.
trols assessments leading to the 1985 assurance state-     We are awaiting the contracting officer's position on
ment and other audit work, the OIG concluded that          the questioned costs.
GSA's review and evaluation process could not be
relied upon as the primary basis for reporting.
These concerns were conveyed to management early in
1986 so that corrective actions could be implemented.      D. Statistical Highlights
Throughout the reporting period, we also advised man-
agement on the appropriateness of actions being per-       The following table compares OIG activity and accom-
formed as part of the 1986 effort. In this regard, we      plishments in other GSA areas to the overall GSA totals
reviewed and commented on the adequacy of training         for the period.
                                           Activity                                         Other GSA       All GSA
         Audit Reports Issued ....................................................... .          27            319
         Recommended Cost Avoidance ........................................... .           $13,798,709    $89,405,192
         Recommended Cost Recovery ........................................... ..                $2,554     $6,288,676
         Management Commitments to Avoid Costs ............................... .                           $42,740,658
         Management Commitments to Recover Funds ........................... .                              $6,175,923
         Percentage of Recommended Cost
           Avoidance Agreed to by Management .................................. .                                67
         Percentage of Recommended Cost
           Recovery Agreed to by Management ................................... .                                75
         Unresolved Audits Older Than 6 Months (Excluding Preawards) ........ .                                   3
         Implementation Reviews Finding Unimplemented Recommendations ... .                                       5
         New Investigative Cases ................................................... .           20             183
         Criminal Referrals (Subjects) .............................................. .           6              86
         Civil Referrals (Subjects) ................................................... .                        14
         Administrative Referrals (Subjects) ........................................ .          18             263
         Suspension/Debarment Referrals (Subjects) .............................. .               1              72
         Indictments/Informations/Complaints ...................................... .             1              24
         Successful Criminal Prosecutions ......................................... .             2              37
         Civil Settlements/Judgments ............................................... .            1               4



     E. Significant Audits From Prior                                GSA Billings to FEMA
        Reports                                                      Period First Reported: October 1, 1985 to March 31, 1986

     According to GSA's audit resolution system, the OIG             A series of three OIG reviews identified internal control
     is responsible for ensuring resolution of audit recom-          weaknesses over GSA billings to the Federal Emergency
     mendations, while the Audit Resolution and Internal             Management Agency (FEMA) for reimbursable work
     Controls Division, Office of Administration, is re-             authorizations. One report was resolved upon issuance
     sponsible for ensuring implementation of resolved au-           since it contained no recommendations. The remaining
     dit recommendations. That office therefore furnished            two reports contained eight recommendations to cor-
     the status information on implementation presented              rect the identified deficiencies.
     herein.
     With regard to GSA services and staff offices other than        On September 19, 1986, the two reports were resolved.
     PBS, FSS, and IRMS, two significant audits from prior           Accordingly, they have just been referred to the Audit
     Reports to the Congress are unimplemented. Both were            Resolution and Internal Controls Division for tracking
     resolved just prior to the close of the reporting period.       of implementation actions.




20
SECTION VI-STATISTICAL SUMMARY OF OIG
ACCOMPLISHMENTS

The previous sections of this report presented OIG ac-     The OIG opened 183 investigative cases and closed 236.
tivity and accomplishments by GSA service and staff        We referred 50 cases (86 subjects) for criminal prosecu-
office. In the pages that follow, overall OIG accom-       tion, 10 cases (14 subjects) for civil litigation, and 7
plishments are comprehensively reported. To facilitate     cases for further investigation by other Federal or State
cross-referencing, the GSA organizational orientation      agencies. Based on these and prior referrals, 28 cases (50
is maintained in these summary statistics. However,        subjects) were accepted for criminal prosecution and 3
there is not a one-to-one correspondence between the       cases (5 subjects) were accepted for civil litigation.
data reported by GSA organization and the overall
statistics, because a portion of our work. involved        Criminal cases originating from OIG referrals resulted
non-GSA operations.                                        in 24 indictments/informations/complaints and 37
                                                           successful prosecutions. Civilly, settlements were
                                                           reached in 2 cases (3 subjects) and a judgment was
                                                           reached in 1 case (1 subject). These actions resulted in
A. DIG Accomplishments                                     determinations that $365,728 is owed the Government.
                                                           Through investigations, we also identified for recovery
During the reporting period, the OIG issued 321 re-        money/property worth $104,584.
ports, including 7 audits performed for the OIG by an-
other agency. These reports contained financial            We referred 190 cases to GSA management for admin-
recommendations totaling $95,765,168, including            istrative action. This total includes 22 case referrals (72
$89,476,492 in recommendations for more efficient use      subjects) for suspension/debarment and 168 case refer-
of resources (cost avoidance) and $6,288,676 in recom-     rals (263 subjects) for other administrative actions.
mendations for the recovery of funds.                      Based on these and prior referrals, management de-
                                                           barred 16 contractors, suspended 21 contractors, repri-
Based on audit reports issued in this and prior periods,
                                                           manded 33 employees, suspended 10 employees,
management committed itself to use $42,740,658 more        demoted 1 employee, and terminated 11 employees.
efficiently and to recover $7,500,980. In addition, OIG
effort also contributed to an unsolicited recovery of      The following subsection presents detailed information
$161,451 from a GSA contractor.                            on these and other quantifiable accomplishments.




                                                                                                                         2
     B. Summary Statistics                                     2. Audit Reports Resolved
                                                               Table 2 summarizes the universe of audits to be re-
                                                               solved by the OIG and GSA management during this
     1. Audit Reports Issued                                   period, as well as the status of those audits as of
                                                               September 30, 1986.
     Table 1 summarizes OIG audit reports issued this
     period by GSA program area. The table includes 7 au-      Between April 1, 1986 and September 30,1986, the total
     dits, recommending a total cost avoidance of              number of unresolved audits more than 6 months old
     $1,986,675, which were performed for the GSA OIG by       fell from 47 to 21. This decline reflected a concerted
     the Defense Contract Audit Agency.                        effort by the OIG to encourage contracting officers to


                                           Table 1.   Summary of OIG Audits
                                                      Percentage         Recommended            Recommended
                     GSA                  Reports      of Total              Cost                   Cost
                   Program                Issued        Audits            Avoidance               Recovery

          PBS
          -Internal ...................     65                             $ 5,379,270            $      66,731
          -Contract ..................     107                              22,4:~'LJ25            ~(3,525
                                           172           54                $27,800,395            $ 413,256

          FSS
          -Internal ...................     13                             $ 4,123,052            $      10,000
          -Contract ..................      38                              n~91~8~                      37,522
                                            51            16               $15,714,535            $      47,522

          IRMS
          -Internal ...................      8                             $11,000,000            $
          -Contract ..................      61                              ?~,Q91 '-~~~              5,8~!5~~44
                                            69           21                $32,091,553            $5,825,344

          Other GSA
          -Internal ...................      23                            $   590,000            $       2,554
          -Contract ..................        4                             13,208,709             ---~--




                                             27            8               $13,798,709            $       2,554

          Non-GSA
          -Internal ...................                                    $                      $
          -Contract ..................        2                             __?1,300               ~-----




                                              2                            $  71,300              $

          TOTAL ......................     321           100               $89,476,492            $6,288,676
          TOTAL COSTS
          RECOMMENDED ..........           $95,765,168




22
resolve preaward contract audits in a timely fashion.           It should be noted that Table 2 does not include: reports
While these audits are not subject to the OMB Circular          issued to other agencies (2 this period) and reports ex-
A-50 6-month resolution requirement, timely resolu-             cluded from the resolution system because they pertain
tion is essential to ensure full recognition and under-         to ongoing investigations. As of September 30, 1986, 32
standing of audit findings prior to contract                    audi ts (17 issued this period, 15 issued in prior periods)
negotiations. Notably, of the audits that are subject           had been excluded from the resolution system for this
to OMB Circular A-50, only three were overdue as of             reason.
September 30, 1986.




                                      Table 2.        Resolution of OIG Audits
                                                                     Reports With                      Total
                                                       No. of          Financial                     Financial
                                                      Reports      Recommendations                Recommendations

     Unresolved as of 4/1/86
     -Less than 6 months old ................. .        109                  67                     $ 37,809,864
     -More than 6 months old ................. .         48                  38                       14,851,817
     Reports issued this period ................. .     303                ~
                                                                            161                      ~?,g~gQ~
     TOTAL TO BE RESOLVED .............. ..             460                 266                     $139,923,748

     Reports resolved
     -Issued prior periods ..................... .      136                  86                     $ 42,849,237
     -Issued current period ................... .       184                  71                       28,681,676
     TOTAL RESOLVED ....................... .           320                 157                     $ 71,530,913

     Unresolved as of 9/30/86
     -Less than 6 months old ................. .        119                  90                     $ 58,580,391
     -More than 6 months old
       -Preaward .............................. .        18                  18                         9,204,784
       -Internal ................................ .       3                ~
                                                                              1                           607,660
                                                                                                     ~----~----~-




     TOTAL UNRESOLVED ................... .             140                 109                     $ 68,392,835
     3. Resolution Decisions on Financial                        period. Notably, $60,402,930 or over 84 percent was up-
        Recommendations                                          held in the audit resolution process.
                                                                 In accordance with GSA Order ADM 2030.2A, resolu-
                                                                 tion decisions on financial recommendations con-
                                                                 tained in contract audit reports result in resolved cost
                                                                 avoidance or recovery. Management commitments ac-
     Table 3 provides detailed information on the 157 audits     cur subsequently, at the time of contract settlement.
     involving financial recommendations of $71,530,913          For internal audits, management commitments occur
     that are identified in Table 2 as being resolved this       at the time of resolution.



                                   Table 3.      Resolution Decisions on OIG Audits
                                                 Recommended        Resolved           Recommended         Resolved
                        GSA                          Cost             Cost                 Cost              Cost
                      Program                     Avoidance         Avoidance            Recovery          Recovery

          PBS
          -Internal ........................ .     $ 4,510,566     $ 1,201,530          $ 355,945         $ 135,047
          -Contract ....................... .       15,323,073      13,566,473
                                                                    ~~.~-.
                                                                                          346,525
                                                                                          ~~~.
                                                                                                           _ 335,231
                                                   $19,833,639     $14,768,003          $ 702,470         $ 470,278
          FSS
          -Internal ........................ .     $ 4,123,052     $ 4,123,052           $                $   69,156
          -Contract. ...................... .       27,157,617         24,~ 24:.,~~~      1,099,390        1,099,390
                                                   $31,280,669     $28,247,507           $1,099,390       $1,168,546
          IRMS
          -Internal ........................ .     $               $                     $   90,432       $
          -Contract ....................... .       14,171,298      11,395,582
                                                                    ---~------
                                                                                          4,353,015
                                                                                          -----~
                                                                                                           4,353,015
                                                   $14,171,298     $11,395,582           $4,443,447       $4,353,015
          Other GSA
          -Internal ........................ .     $               $                     $                $
          -Contract ....................... .                                                              ~~~




                                                   $               $                     $                $

          TOTAL ........................... .      $65,285,606     $54,411,091           $6,245,307       $5,991,839

          TOTAL
          RESOLVED
          COSTS .......................... .       $60,402,930




24
4. Contract Audit Settlements                                           ment commitments achieved in negotiations with
                                                                        contractors. Overall, management commitments on
Table 4 compares contract audit recommendations re-                     GSA audits represented 82 percent of the resolved
solved in the audit resolution process with manage-                     amounts.




                           Table 4.      Summary of Contract Audit Settlements
                                                              Avoidance                                  Recovery
                GSA                   No. of             Costs      Management                     Costs     Management
              Program                Reports            Resolved    Commitment                    Resolved   Commitment

     PBS
     -Prior ......................      76          $22,481,274               $13,231,266         $ 441,208    $ 462,407
     -Current ...................       19            1,627,409
                                                    "~--""-"~-
                                                                               _ 1,450,570
                                        95          $24,108,683               $14,681,836         $ 441,208    $ 462,407
     FSS
     -Prior ......................     41           $16,042,715               $16,111,481         $1,227,814   $1,128,000
     -Current ...................       3               348,775                   348,775
                                                                               ----"-.--"--~--"
                                                                                                      15,153       15,153
                                                                                                                -"--
                                       44           $16,391,490               $16,460,256         $1,242,967   $1,143,153
     IRMS
     -Prior ......................     32           $ 4,120,031               $ 4,588,788         $5,368,193   $4,366,160
     -Current ...................       2             1,685,196
                                                    _ " W _ _ _" _ _" _ _ _
                                                                                1,685,196                       -~-~




                                       34           $ 5,805,227               $ 6,273,984         $5,368,193   $4,366,160

     Subtotal-GSA .............        173          $46,305,400               $37,416,076         $7,052,368   $5,971,720

     Non-GSA
     -Prior ......................       2          $                         $                   $1,325,057   $1,325,057
     -Current ...................        1

     Subtotal-Non-GSA .......            3          $                         $                   $1,325,057   $1,325,057
     TOTAL ......................     176           $46,305,400               $37,416,076         $8,377,425   $7,296,777

     TOTAL
     MANAGEMENT
     COMMITMENTS ...........          $44,712,853




Drawing upon the information presented in Tables 3                      to recover equaled $7,500,980.
and 4, OIG audits involving GSA programs resulted in
total management commitments to avoid $42,740,658                       In addition to these amounts, this period a contractor
and to recover $6,175,923. Adding the $1,325,057 from                   contacted the OIG to make a voluntary payment of
the non-GSA audits, total management commitments                        $161,451.




                                                                                                                                 2
     5. Recoveries                                                  The OIG performs its own independent reviews of im-
                                                                    plementation actions on a test basis. This period, the
     The General Accounting Office recommended that                 OIG performed 19 implementation reviews. Manage-
     OIG Reports to the Congress include data on actual             ment had successfully implemented the recommenda-
     monetary recoveries, in addition to management com-            tions contained in 14 of these reviews. In the other 5
     mitment information. Although such a requirement               instances, recommendations were not being imple-
     has not yet been instituted, the GSA OIG requested             mented in. accordance with the action plans. All five of
     data on actual audit recoveries from GSA's Audit Res-          these audits involved PBS programs.
     olution and Internal Controls Division.
     Between April 1, 1986 and September 30, 1986, Agency
     records show that $5,111,675 was recovered and depos-
                                                                    7. Investigative Workload
     ited in the Treasury.
                                                                    Table 5 presents detailed information on investigative
                                                                    workload by case category. The OIG opened 183 cases
     6. Audit FoHowup                                               and closed 236 cases; only 2 of these cases were admin-
                                                                    istratively closed without referral.
     GSA Order ADM 2030.2A places primary responsibil-
     ity for followup on the implementation of resolved             In addition to these cases, the OIG received and evalu-
     audit recommendations with the Audit Followup Offi-            ated 176 complaints/allegations from sources other
     cial. The Audit Resolution and Internal Controls Divi-         than the Hotline that involved GSA employees and pro-
     sion, Office of Administration, acts as staff to the Audit     grams. Based upon an analysis of these allegations, OIG
     Followup Official in this function.                            investigations were not warranted.




                                             Table 5.      Investigative Workload
                               Case                            Cases Open      Cases          Cases        Cases Open
                              Category                           4/1/86        Opened         Closed         9/30/86
          White Collar Crimes ............................        232             89            119            202
          Other Crimes Involving GSA Operations ......             53             22             35             40
          Contractor Suspension/Debarment ............             34             19             17             36
          Employee Misconduct ..........................           49             38             49             38
          Other ............................................       15             15           ~                14
          TOTAL ..........................................        383            183            236            330


     Table 6 distributes the 183 new investigative cases            fell within the white collar crime category. Most of the
     opened this period (Table 5) by case category and GSA          new cases (85 percent) involved PBS and FSS programs.
     program area. Notably, 49 percent of the cases opened


                               Table 6.      Distribution of Cases Opened This Period
                              Case                                                                             Other
                             Category                             PBS            FSS            IRMS           GSA
          White Collar Crimes ........................ .           43             37              5              4
          Other Crimes Involving GSA Operations .... .             10             11                             1
          Contractor Suspension/Debarment .......... .              7             11
          Employee Misconduct ........................ .           24              6                             7
          Other .......................................... .        6              1                             8
          TOTAL ........................................ .         90             66              7             20




26
8. Referrals                                                                                                                  Cases      Subjects
                                                                    Pending Decision as
The OIG makes three types of referrals to officials out-              of 4/1/86 ...................... .                        44          68
side GSA: criminal, civil, and investigative. During this           Referrals ......................... .                      168         263
period, we referred 50 cases involving 86 subjects to the           Action Completed ............. .                           175         258
Department of Justice or other authorities for criminal             Pending Decision as
prosecutive consideration. The status of OIG criminal                 of 9/30/86 ..................... .                        37          73
referrals is as follows:                                          Of the 168 cases referred for administrative action this
                                                                  period, 89 cases (128 subjects) involved GSA employ-
                                           Cases     Subjects     ees. As a result of these and prior referrals, management
   Pending Prosecutive Decision                                   took the following actions against GSA employees:
     as of 4/1/86 ................... .      43         77          Reprimands. . . . . . . . . . . . . . . . . . . . . .      33
   Referrals ......................... .     50         86
                                                                    Suspensions. . . . . . . . . . . . . . . . . . . . . .     10
   Declinations .................... .       30         55
                                                                    Demotions. . . . . . . . . . . . . . . . . . . . . . .       1
   Accepted for Prosecution ...... .         28         50
                                                                    Terminations. . .. . . . . ... . . ... . .. .              11
   Pending Prosecutive Decision
     as of 9/30/86 .................. .      35         58
                                                                  10. Contractor Suspensions and
The OIG also referred 10 cases involving 14 subjects to
either the Civil Division of the Department of Justice or             Debarments
a U.S. Attorney for civil fraud litigation consideration.
The status of OIG civil referrals is as follows:                  The OIG continued its efforts to make the suspension
                                                                  and debarment process a more effective and more read-
                                                                  ily used administrative procedure. This period, the OIG
                                           Cases     Subjects     referred 9 cases involving 28 subjects for suspension
   Pending Litigation Decision                                    and 13 cases involving 44 subjects for debarment. As a
     as of 4/1/86 ................... .       6          6        result of these and prior referrals, management imposed
   Referrals ......................... .     10         14        21 suspensions and 16 debarments. Management dis-
   Declinations .................... .        2          2        approved 12 debarments.
   Accepted for Litigation ........ ,         3          5
   Pending Litigation Decision                                    The status of OIG suspension and debarment referrals
     as of 9/30/86 .................. .      11         13        is as follows:
                                                                    Suspensions                                               Cases      Subjects
The OIG made 7 case referrals to other Federal or State             Pending as of 4/1/86 ............                           4            9
agencies for further investigation or other action.                 Referrals ..........................                        9           28
                                                                    Action Completed ..............                             6           21
                                                                    Pending as of 9/30/86 ...........                            7          16
9. Administrative Referrals and Actions                             Debarments                                                Cases      Subjects
Frequently, OIG investigations disclose nonprosecut-                Pending as of 4/1/86 ............                            8          20
able wrongdoing on the part of GSA employees, con-                  Referrals ..........................                        13          44
tractors, or private individuals doing business with the            Action Completed ..............                              8          28
GSA. The OIG refers these cases to GSA officials for                Pending as of 9/30/86 ...........                           13          36
administrative action.
During the period, we referred 168 cases involving 263            11. Summary of Referrals by GSA
subjects for administrative action. In addition, we re-
ferred 99 cases involving 136 subjects to GSA officials               Program Area
for informational purposes only.
                                                                  Table 7 summarizes OIG referrals this period by type of
The status of OIG administrative referrals is as follows:         referral and GSA program area.


                                  Table 7.        Summary of OIG Subject Referrals
                           GSA                                                                      Adminis-                 Suspensionl
                         Program                         Criminal             Civil                  trative                  Debarment
      PBS ......................................... .        30                   5                     121                     40
      FSS ......................................... .        48                   8                     114                     30
      IRMS ........................................ .         2                   1                      10                      1
      Other GSA .................................. .          6                                        ~                             1
      TOTAL ...................................... .         86                 14                      263                     72

                                                                                                                                                    27
     12. Criminal and Civil Actions                                  rals from this and prior periods resulted in a judgment
                                                                     against one subject and settlements with three subjects.
                                                                     Table 8 summarizes individual criminal and civil ac-
     Cases accepted for criminal prosecution during this and         tions by GSA program area. In addition, there were 3
     prior periods resulted in 24 indictmentslinformationsl          unsuccessful civil cases against 3 subjects and 6 unsuc-
     complaints and 37 successful prosecutions. Civil refer-         cessful criminal cases against 6 subjects.



                                   Table 8.      Summary of Criminal and Civil Actions
                                                                   Indictments!                                Civil
                                 GSA                              informations!        Successful          Settlements!
                               Program                              Complaints        Prosecutions         Judgments
           PBS ............................................ .           4                   10
           FSS ............................................ .          19                   25                    3
           IRMS ........................................... .
           Other GSA ..................................... .            1                      2
           TOTAL ......................................... .           24                   37                    4



     13. Monetary Results                                            money andlor property during the course of its investi-
                                                                     gations.
     Table 9 presents the amounts determined to be owed
     the Government as a result of criminal and civil ac-
     tions. The amounts do not necessarily reflect actual            14. OIG Subpoenas
     monetary recoveries.
     In addition, the OIG identified for recovery $104,584 in        During the period, eight OrG subpoenas were issued.



                                         Table 9.       Criminal and Civil Recoveries
                                                                      Criminal                 Civil             Total

           Fines and Penalties ............................ .        $290,280              $                   $290,280
           Settlements!Judgments ........................ .                                 50,551               50,551
           Restitutions ..................................... .        24,897                                    24,897
           TOTAL .......................................... .        $315,177              $50,551             $365,728




28
SECTION VII - REVIEW OF LEGISLATION
AND REGULATIONS

Section 4(a)(2) of the Inspector General Act of 1978             We commented that although we disagreed with
requires the OIG to review existing and proposed legis-          the restrictions imposed upon the use of the Civil
lation and regulations relating to the programs and              Investigative Demand, the bill would resolve am-
operations of GSA. In order to fulfill this legislated re-       biguities in current case law and strengthen the
sponsibility, the OIG maintains a clearance system that          Government's ability to investigate and prose-
ensures OIG review of all proposed legislation, regula-          cute fraud.
tions, and internal directives having impact on any
aspect of GSA operations.                                    •   H.R. 4827, proposed Amendments to the False
                                                                 Claims Act. We strongly supported those sections
                                                                 of this bill that:
A. Legislation/Regulations                                           mirror provisions in S. 1562; and
                                                                     establish an administrative remedy for re-
   Reviewed                                                          covering losses in cases involving only small
                                                                     dollar amounts.
During the period, the OIG reviewed 269 legislative
matters and 150 proposed regulations and directives.             We opposed the provision preventing an agency
We provided substantive comments on 21 legislative               from holding an administrative hearing on an al-
matters and 30 regulations and directives.                       leged false claim/statement when a Contract Dis-
The OIG legal staff coordinates the clearance func-              putes Act claim has already been filed.
tion, seeking input from the other components as             •   H.R. 4886, the proposed Financial Fraud Detec-
appropriate.                                                     tion and Disclosure Act of 1986, a bill to amend
                                                                 Section I of the Securities and Exchange Act of
                                                                 1934. We commented that while we supported
B. Significant Comments                                          the requirement that non-Government auditors
                                                                 report suspected illegal acts to appropriate Gov-
The OIG provided significant comments on the follow-             ernment officials, it would be unreasonable to
ing legislation, regulations, orders, and directives:            require these auditors to develop procedures to
                                                                 ensure the detection and reporting of any illegal
  •   H.R. 4995, the proposed Federal Financial Man-             activity and the safeguarding of funds and assets
      agement Improvement Act. Although we sup-                  from waste or loss.
      ported its goals, we expressed concern that the bill
      might create a self-interested "financial bureau-      •   S. 2433, the proposed Simplified Competitive Ac-
      cracy" requiring substantial resources to support.         quisition Technique Act of 1986. Although we
      We recommended an amendment requiring that                 endorsed the intent of this bill, we opposed its en-
      the Office of Management and Budget participate            actment because some of the revisions were con-
      in establishing the job qualifications for Federal         trary to the Government's best interest. We were
      financial managers.                                        especially concerned that the statutory language
                                                                 might be construed as:
  •   H.R. 4488, the proposed Non-Smokers Protection
      Act of 1986. We commented that, if reasonably                  prohibiting supervisory review of contracting
      administered, this bill appeared beneficial. How-              officers' award decisions;
      ever, we recommended that the Administrator,
                                                                     requiring the Government to defer award de-
      GSA, in consultation with the Surgeon General,
      regulate smoking in public buildings rather than               cisions pending notice to all unsuccessful of-
      the Secretary, Department of Health and Human                  ferors; and
      Services.                                                      limiting the use of preaward audits to deter-
                                                                     mine the reasonableness of pricing proposals.
  •   S. 1562, the proposed False Claims Reform Act of
      1985. We strongly supported this bill, especially      •   H.R. 4952, the proposed ElectronicCommunica-
      the provisions calling for:                                tions Privacy Act of 1986. We generally supported
          increases in statutory penalties, recoverable          this bill over the original House and Senate ver-
                                                                 sions. In our detailed comments, yve opposed a
          damages, criminal fines, and prison terms;
                                                                 provision requiring the issuance of a court order
          and
                                                                 prior to the installation of a pen register, noting
          the adoption of a uniform preponderance of             that the Supreme Court had recently held that
          evidence standard.                                     there was no such constitutional requirement.



                                                                                                                        25
         We also expressed concern with the provisions:            ment over existing law.
             providing for the recovery of attorneys' fees     •   S. 2738, the proposed Federal Contractor's Self-
             and other costs since it could be interpreted         Governance Act. While noting that the apparent
             as allowing recoveries from the Government;           objectives of the bill were laudable, we expressed
             and                                                   serious concerns about its feasibility. We also
                                                                   observed that the evaluation and reporting re-
             implying that a court order is required for the
                                                                   quirements it imposed upon independent public
             installation of mobile tracking devices, since
                                                                   accountants would likely lead to the retention of
             the Circuit Courts of Appeals are in conflict         outside consultants to perform certain functions,
             on this issue and the Supreme Court has not
                                                                   resulting in significantly increased costs to the
             yet decided on it.
                                                                   Government.
     •   S. 2621, the proposed Federal Performance of          •   GSA Notice, Use of Internal GSA Telephone Ser-
         Commercial Activities Improvement Act of                  vices. We suggested that the notice be revised to
         1986. We opposed this bill noting that this area          state clearly that telephone services are provided
         would best be addressed by administrative and             solely for the conduct of official Government
         executive action. We commented on a number of             business.
         specific provisions of the bill and concluded that
         the addition of new, statutorily mandated, for-       •   Draft GSA Order ADM 5400.39, GSA's Implemen-
         malized cost accounting, reporting, and excep-            tation of the OMB Circular A-76/Productivity Im-
         tion procedures would unnecessarily strain                provement Program (PIP). We expressed concern
         increasingly scarce resources.                            over the apparent evolution of the A-76/PIP office
                                                                   from a staff-oriented program management office
     •   S. 2516, the proposed Federal Government Con-             into a line function control office possessing au-
         tractors' Personnel Protection Act of 1986. We            thority over the studies performed and conclusions
         fully supported this bill noting that legal protec-       reached by the various GSA services and staff of-
         tion for "whistleblowers" employed by Federal             fices. We also expressed reservations on the pro-
         contractors would be a desirable complement to            posed implementation of the Efficiency Review
         the protections afforded Federal employees. We            Program, noting that the program might be overly
         commented that the bill should appreciably facil-         ambitious.
         itate the prevention and detection of fraud, waste,
         and abuse in Government contracts.                    •   FPMR Temporary Regulation A, Use of Contract
                                                                   Airline Services Between Selected Cities/ Air-
     •   S. 2250, the Antikickbacl< Act Amendments. We             ports. We suggested that the regulation be revised
         strongly supported enactment of this bill, as             to address our concern over potential Govern-
         amended. We commented that the bill in its pres-          ment losses resulting from travelers cancelling
         ent form would represent a substantial improve-           advance airline reservations.




30
SECTION VIII - OTHER OIG ACTIVITIES

In addition to detecting problems in GSA operations,        VII) and continued preaward coverage ot GSA's leasing
the OIG is responsible for initiating actions to prevent    program. These activities stem from the belief that
fraud, waste, and abuse and to promote economy and          many of tomorrow's problems can be avoided through
efficiency. This section details: the OIG program           decisive action today.
responding to these legislated prevention responsibili-
                                                            The ~iG's program for reviewing leases prior to award
ties and OIG involvement in projects sponsored by the
President's Council on Integrity and Efficiency (PCIE).     provides front-end assurance that GSA is adhering to
                                                            regulations and procedures before awarding selected
                                                            leases involving annual rentals in excess of $200,000.
                                                            The reviews, although purely advisory in nature, limit
A. DIG Prevention Program                                   opportunities for fraud, waste, and abuse in the leasing
                                                            area.
The OIG prevention program is comprised of four ele-        The program achieved the following results during the
ments that simultaneously focus on minimizing               reporting period:
opportunities for fraud, waste, and abuse and promoting
awareness among GSA employees. This four-pronged              Lease proposals submitted for review ............ 76
approach consists of:                                         Lease proposals reviewed ......................... 28
                                                              Lease proposals with major deficiencies .......... 2
  ..   Defining areas vulnerable to fraud, waste, and         Lease proposals with minor deficiencies ........ 17
       abuse and assessing the degree of vulnerability.       Lease proposals with no deficiencies .............. 9
  ..   Anticipating potential problem areas and per-        A major deficiency identified through OIG preaward
       forming front-end reviews to help ensure that        advisory reviews related to a potential overpayment of
       programs will operate within applicable laws, pol-   up to $2.6 million because a proposed lease extension
       icies, and procedures.                               did not include a termination provision (see Section II).
  ..   Educating GSA employees on the manifestations        Some minor deficiencies included: incomplete docu-
       of fraud and the mechanisms for reporting suspi-     mentation of negotiations and market surveys; unspec-
       cions or allegations to the OIG.                     ified overtime service rates; and incomplete rent credit
                                                            provisions.
  ..   Communicating the OIG presence and establish-
       ing mechanisms that promote a dialogue between
       GSA employees and the OIG.
                                                            3. Education
1. Definition                                               Integrity Awareness Briefings comprise the ~iG's pri-
                                                            mary vehicle for educating employees in the manifes-
The OIG considers the identification of vulnerable          tations of fraud and abuse. Individual briefings explain
areas to be a major prerequisite to the prevention of       the statutory mission of the OIG and the functions
fraud, waste, and abuse. Toward this end, the OIG           executed by each of our component offices. In addition,
expended considerable resources this period redesign-       through case studies and slides, the briefings expose
ing its Management Inventory of Auditable Entities.         GSA employees to actual instances of white collar
As reported last period, a major study of the Inventory     crime in GSA and other Federal agencies. They con-
disclosed several limitations impacting on its effective-   clude with a presentation on bribery that teaches
ness. Chief among these was its limited usefulness as       employees how to recognize bribery attempts; how to
an audit planning tooL                                      respond to them; and the employee's potential role in
                                                            an ensuing investigation.
The new Inventory, which is substantially complete,
presents the universe of GSA organizational units in a      Since the inception of this program in 1981, almost
format more conducive to the audit planning process. It     6,830 GSA employees have attended Integrity Aware-
is envisioned that this streamlined inventory will sim-     ness Briefings. This total includes the 319 Central
plify the updating process necessitated by frequent GSA     Office and regional employees attending 14 briefings
                                                            this period.
reorganizations.
                                                            This period, the OIG, at the Administrator's request,
                                                            began development of a series of program -specific
2. Anticipation                                             Integrity Awareness Briefings. The effort was based on
                                                            the premise that the integrity message would be more
OIG anticipation activities this period focused on re-      meaningful if discussed in relation to the particular pro-
view of proposed legislation and regulations (Section       gram in which each employee works.



                                                                                                                         31
     Based on recent audit and investigative findings, the     Seventeen agencies are participating in this two-phased
     initial briefing package was designed for employees of    review, including the Department of Defense and most
     GSA's buildings management program. An intensive          major civilian agencies.
     briefing program will be conducted during the next 6
     months, with the goal of reaching as many buildings       This period, all agencies completed both phases of the
     management field offices as possible.                     review. Participating agencies issued 21 individual
                                                               reports, with 8 more to be issued in October 1986.
     Meanwhile, development of the second briefing pack-       The consolidated report is scheduled for issuance in
     age in the series will commence concurrently so that it   December 1986.
     will be ready for presentation when the buildings man-
     agement series is concluded.

                                                               2. Review of Compliance With
     4. Communication                                             IRS Information Return Filing
     A free flow of information between GSA employees and         Requirements (Form 1099)
     the OIG is a vital prevention and detection element.
     Recognizing this fact, the OIG issues brochures on the    The GSA OIG is participating in this PCIE project
     Hotline and its Report to the Congress and displays       aimed at:
     Hotline posters in all GSA buildings nationwide.            •   Identifying agency nonwage payments made to
     This period, we received 373 Hotline calls and letters.         individuals and partnerships in calendar year
     Of these, 114 complaints warranted further action. We           1984.
     also received 12 referrals from GAO and 31 referrals        •   Assessing agency compliance with the Internal
     from other agencies that required further action. The           Revenue Service (IRS) information return filing
     remaining 259 Hotline complaints required no further            requirements.
     action and were closed.
                                                               IRS uses Form 1099 information to determine whether
                                                               taxpayers have properly reported payments from Gov-
                                                               ernment agencies in their income tax returns.
     B.. Projects Sponsored by the                             Twenty agencies are participating in this two-phased
                                                               review. Individual agency reports have been issued; the
         PCIE                                                  consolidated report is scheduled for issuance in October
     The OIG continued to participate in interagency proj-     1986.
     ects sponsored by the PCIE. Specific involvement this
     period is delineated by project in the paragraphs that
     follow. In addition to these efforts, OIG staff members
     also provided ongoing support to several PCIE             3. Auditor/Accountant Job Analysis
     committees.                                                  Project
     1. Review of Federal Telecommunications                   The GSA OIG is participating, in conjunction with
                                                               other Federal agencies, in this evaluation of the audi-
           System (FTS) Utilization                            tors/accountants referred by the Office of Personnel
                                                               Management (OPM) for entry level positions. The re-
     The GSA OIG is the lead agency for this PCIE review
                                                               view, which will assess the job duties performed by re-
     aimed at:
                                                               cently hired auditors/accountants, will determine
       •    Evaluating the utilization of telecommunications   whether methods for screening applicants for place-
            resources.                                         ment on OPM registers require change.
       •    Identifying ways of reducing telecommunications    During the period, Steering and Working Committee
            costs through more effective and efficient man-    members were selected. It is expected that field work
            agement of these resources.                        will be completed in March 1988.




32
APPENDICES
     APPENDIX I - AUDIT REPORT REGISTER

     Assignment                                                                                            Date of
     Number       Title                                                                                    Report

     PBS          Contract Audits
     A60272       Audit of Claim for Increased Costs: Albers Construction Company, Inc., St. Louis, MO,    04/02/86
                  Contract No. GS-06B-81150
     A60196       Preaward Audit of Architect and Engineering Services Contract: Morgan, O'Neal, Hill      04/04/86
                  and Suttonl Architects, Contract No. GS-07B-86-HU-D-0002
     A60l36       Preaward Audit of Architect and Engineering Services Contract: Gipe Associates, Inc.,    04/08/86
                  Contract No. GS-IIP-86-MK-C-9006
     A60200       Preaward Audit of Lease Escalation Proposal: LSS Leasing Corporation, Lease No. GS-      04/08/86
                  02B-10333
     A60279       Preaward Audit of Architect and Engineering Services Contract: Adams/Keeton/Cosbyl       04/08/86
                  Amaro, Inc., Solicitation No. GS-04P-86-EX-C-0005
     A60203       Postaward Audit of Concession Contract: Canteen Corporation, Contract No. GS-04B-        04/11/86
                  16029 for the Period 4126/74 to 5119/86
     A60214       Preaward Audit of Architect and Engineering Services Contract: Aerosol Monitoring        04/16/86
                  and Analysis, Inc., Contract No. GS-IIB-59027
     A60271       Preaward Audit of Architect and Engineering Services Contract: KCAE, A Joint Ven-        04/16/86
                  ture, Kansas City, MO, Solicitation No. IM062230
     A50620       Postaward Audit of Cost or Pricing Data: Federation of the Handicapped, Contract No.     04117/86
                  GS-02B-19590 for the Period 711184 to 6/30/85
     A60270       Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Crown Con-        04118/86
                  struction Co., Inc., St. Louis, MO, Solicitation No. RM062110
     A50503       Postaward Audit of Cost or Pricing Data: Federation of the Handicapped, Contract No.     04121/86
                  GS-02B-19637 for the Period 5/1184 to 4/30/85
     A60174       Postaward Review of Hugh Stubbins and Associates, Contract No. GS-OIB-92223, Mod-        04/21186
                  ifications Nos. 3 and 5
     A60310       Preaward Audit of Architect and Engineering Services Contract: George M. Smart Ar-       04121186
                  chitects, Inc., Contract No. GS-04P-86-EX-C-000l
     A50607       Postaward Audit of Cost or Pricing Data: Federation of the Handicapped, Contract No.     04/24/86
                  GS-02B-19588 for the Period 611/84 to 5131185
     A60232       Preaward Audit of a Claim for Increased Costs: TCI, Ltd., Contract No. GS-lOP-02695      04125/86
     A6029 1      Preaward Audit of a Claim for Increased Costs: Air Systems Co., Contract No. GS-lOP-     04125/86
                  02695
     A60292       Preaward Audit of a Claim for Increased Costs: The Floor Store, Inc., Contract No. GS-   04/25/86
                  lOP-02695
     A60239       Preaward Audit of a Claim for Increased Costs: A & A Mechanical Contractors, Inc.,       04128/86
                  Subcontractor to Continental Heller Corporation, Contract No. GS-09B-00700-SF
     A60265       Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Con-Real Sup-     04129/86
                  port Group, Inc., Solicitation No. ITX 86003
     A50639       Interim Report on an Audit of a Claim for Increased Construction and Delay Costs:        04/30/86
                  Continental Heller Corporation, Contract No. GS-09B-00700-SF
     A60l70       Preaward Audit of a Claim for Increased Costs: Fan, Inc., Contract No. GS-05BC-81964     04/30/86
     A60311       Preaward Audit of Architect and Engineering Services Contract: Fraga and FeitolArchi-    04/30/86
                  tects-Planners, Contract No. GS-04P-86-EX-C-0002
     A60312       Preaward Audit of Architect and Engineering Services Contract: Lucas, Stubbs, Pascul-    04/30/86
34                lis, Powell, and Penney Ltd., Contract No. GS-04P-86-EX-C-0003
A60350   Preaward Audit of Cost or Pricing Data: Hyde's Security Services, Inc., Solicitation No.   04/30/86
         GS-04 P-86-EWC-0538
A60198   Preaward Audit of Lease Alteration Proposal: Columbian Properties Corporation,             05/02186
         Topeka, KS, Lease No. GS-06B-12797
A60201   Preaward Audit of Lease Escalation Proposal: LSS Leasing Corporation, Lease No. GS-        05/05/86
         02B-15366
A60255   Preaward Audit of a Claim for Increased Costs: Eastley Inc., Contract No. GS-03B-46051     05/05/86
A60268   Preaward Audit of Architect and Engineering Services Contract: Peterson Associated         05106/86
         Engineers, Inc., Project No. lOR86121
A60269   Preaward Audit of Architect and Engineering Services Contract: Yost Grube Hall, P.C,       05106/86
         Project No. lOR86121
A60281   Preaward Audit of Cost Proposal: Federation of the Handicapped, NISH Project No.           05106/86
         020494
A60293   Preaward Audit of Architect and Engineering Services Contract: Yandell & Hiller, Inc.,     05/08/86
         Solicitation No. GS-07P-86-HU-D-0055
A60340   Audit of Lease Escalation Claim: Mountain View Development Company, Kansas City,           05/08/86
         MO, Lease No. GS-08B-09899
A60318   Preaward Audit of Cost or Pricing Data: Hyde's Security Services, Inc., Solicitation No.   05/09/86
         GS-Il P-86-MJ C-0025
A60334   Preaward Audit of Small Business Administration 8(a) Pricing Proposal: B & H Services,     05109/86
         Inc., Solicitation No. GS-05-P-86-GA-000l
A60305   Preaward Audit of a Claim for Increased Costs: Evans Brothers, Inc., Subcontractor to      05/15/86
         Continental Heller Corporation, Contract No. GS-09B-00700-SF
A60088   Preaward Audit of a Claim for Increased Costs: M. Kramer and Sons, Inc., Contract No.      05121186
         GS-02B-l7192
A60351   Preaward Audit of Cost or Pricing Data: Parkway Services, Inc., Solicitation No. GS-       05/22/86
         04P-86-EWC-0506
A60327   Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Professional        05127186
         Technical Services, Inc., University City, MO, Solicitation No. 6PPB860014
A60368   Preaward Audit of Small Business Administration 8(a) Pricing Proposal: 1. J. Cutwright,    05/28/86
         Inc., Des Moines, Iowa, Solicitation No. RIA62300
A60202   Preaward Audit of Lease Escalation Proposal: Adam Baum, Lease No. GS-02B-19192             05129186
A60298   Preaward Audit of Change Order Proposal: Berti Company, Subcontractor to Hyman!            05129/86
         White, A Joint Venture, Contract No. GS-OIB-02294
A60416   Preaward Audit of Architect and Engineering Services Contract: Eberle M. Smith As-         06/02/86
         sociates, Inc., Solicitation No. GS-05-P-86-GB-C-0045
A60264   Preaward Audit of Architect and Engineering Services Contract: Graham and Associ-          06/04/86
         ates, Solicitation No. GS-07P-86-HU-D-00SO
A60367   Preaward Audit of Cost or Pricing Data: Consolidated Methods, Inc., Solicitation No.       06/06/86
         GS-05P-86-GB-C-0089
A60369   Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Courtney Day,       06/06/86
         Inc., Kansas City, MO, Solicitation No. IIA62000
A50422   Audit of Contractual Provisions: Post Office Pavilion Joint Venture, Lease No. GS-PBS-     06/09/86
         11-0L-9477
A60345   Prcaward Audit of Small Business Administration 8(a) Pricing Proposal: Great Lakes         06/10186
         Maintenance and Security Corp.! Solicitation No. GS-05-P-86-GA-C-0004
A60240   Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Securiguard,        06/11186
         Inc., Solicitation No. GS-IIP-86-MJC-0034
A60325   Postaward Audit of Architect and Engineering Services Contract: Lebron Associates,         06113/86
         Contract No. GS-02P-86CVDOOI9
A60l63   Preaward Audit of a Claim for Increased Costs: Powers Regulator Company, Contract          06117/86
         No. GS-05BC-81422                                                                                     35
     A60l64    Preaward Audit of a Claim for Increased Costs: Powers Regulator Company, Contract          06117/86
               No. GS-09B-75I9-SF
     A60105    Preaward Audit of a Claim for Increased Costs: Golden Brush Painting and General           06/20/86
               Contracting, Inc., Contract No. GS-06B-42240
     A60375    Preaward Audit of Cost or Pricing Data: Al & Associates Property Services, Inc., Solic-    06/20/86
               itation No. RFP-86-0174
     A60l65    Preaward Audit of a Claim for Increased Costs: Powers Regulator Company, Contract          06/24/86
               No. GS-00B-02850
     A604I3    Preaward Audit of Lease Escalation Proposal: Angelo S. Petitto/F & P Realty Co., Lease     06/25/86
               No. GS-03B-70l14
     A60045    Preaward Audit of a Claim for Increased Costs: Alumni Plumbing & Heating Corp.,            06/26/86
               Subcontractor to Terminal Construction Corp., Contract No. GS-02P-23256
     A60445    Preaward Audit of Small Business Administration 8(al Pricing Proposal: Integrity Pri-      06/26/86
               vate Security Services, Inc., Solicitation No. GS-04P-86-EWC-0539
     A60286    Preaward Audit of Small Business Administration 8(al Pricing Proposal: Eccles Security     06/27/86
               Agency, Inc., Solicitation No. GS-11P-86-MJC-00l2
     A60443    Preaward Audit of Small Business Administration 8(al Pricing Proposal: rCM Control         06/27/86
               Systems, Inc., Solicitation No. GS-003-86-00R-00l9
     A60355    Preaward Audit of Lease Alteration Proposal: Valley Commercial, Inc., McAllen, TX,         07/01/86
               Solicitation No. MTX 52894
     A60482    Preaward Audit of Lease Escalation Proposal: Koger Properties Incorporated, Lease No.      07/02/86
               GS-04B-15149
     A60195    Preaward Audit of Lease Escalation Proposal: Prince Georges Center, Inc., Lease No. GS-    07/03/86
               03B-06390
     A60400    Preaward Audit of Architect and Engineering Services Contract: Montoya Rodriguez/          07/08/86
               Lev Zetlin, Joint Venture, Solicitation No. INY-86403
     A6044 1   Preaward Audit of Cost or Pricing Data: Parkway Services, Inc., Solicitation No. GS-       07/08/86
               04P-86-EWC-0257
     A60252    Audit of Termination Settlement Proposal: Melrose Waterproofing Co., Contract No.          07/11/86
               GS-03B-36132
     A60452    Preaward Audit of Small Business Administration 8(al Pricing Proposal: Elias   J. Vargas   07114/86
               Construction Company, Davenport, Iowa, Solicitation No. RIA62100
     A60363    Preaward Audit of Architect and Engineering Services Contract: Lewis/Wisnewski &           07/16/86
               Associates, Ltd., Contract No. GS-IIB-690l0
     A60289    Preaward Audit of Lease Escalation Proposal: Denver West Office Building No.2 Ven-         07/21186
               ture, Lease No. GS-08B-09787
     A60290    Preaward Audit of Lease Escalation Proposal: Denver West Office Building No.3 Ven-         07/21/86
               ture, Lease No. GS-08B-10737
     A60494    Preaward Audit of Architect and Engineering Services Contract: The Pickering Firm,         07/21/86
               Inc., Solicitation No. ICA-11200
     A60343    Evaluation of a Claim for Equitable Adjustment: P. Francini and Company, Inc.,             07/24/86
               Contract No. GS-OIB-02350
     A60446    Preaward Audit of a Claim for Increased Costs: NGC Investment and Development,             07/24/86
               Inc., Solicitation No. GS-04B-83046
     A60210    Preaward Audit of a Claim for Increased Costs: Roy M. Butcher Electric, Sub con-           07/31186
               tractor to Continental Heller Corporation, Contract No. GS-09B-00700-SF
     A50639    Preaward Audit of a Claim for Increased Construction and Delay Costs: Continental          08/01/86
               Heller Corporation, Contract No. GS-09B-00700-SF
     A60407    Preaward Audit of Small Business Administration 8(al Pricing Proposal: Multivac,           08/04/86
               Inc., Solicitation No. RFP-GS-IIP-86-MJC-0070
     A50504    Preaward Audit of Architect and Engineering Services Contract: The Grad Partner-           08/06/86
36             ship, Solicitation No. 2PPC-CM-85-5S2
A60362   Preaward Audit of Architect and Engineering Services Contract: Peck-Peck & As-        08/07/86
         sociates, Inc., Contract No. GS-llB-69009
A60464   Preaward Audit of Architect and Engineering Services Contract: Oudens and Knoop       08/07/86
         Architects, P.c., Contract No. GS-llB-59031
A60456   Pre award Audit of Architect and Engineering Services Contract: Kemnitzer, Reid &     08/14/86
         Haffler, Architects, Contract No. GS-IIB-69029
A60457   Pre award Audit of Architect and Engineering Services Contract: Kemnitzer, Reid &     08/15/86
         Haffler, Architects, Contract No. GS-llB-69024
A60285   Preaward Audit of a Claim for Increased Costs: Charles H. Riddle Co., Contract No.    08/19/86
         GS-llB-28492
A60395   Preaward Audit of Architect and Engineering Services Contract: Louis/Wisnewski &      08/19/86
         Associates, Ltd., Contract No. GS-IlB-69026
A60399   Preaward Audit of Lease Escalation Proposal: The Virginia Corporation, Lease No.      08/22/86
         GS-03B-5875
A60448   Preaward Audit of Architect and Engineering Services Contract: Caballero Archi-       08/22/86
         teets, A.LA., P.c., Contract No. GS-IIB-86-MKC-9025
A60324   Preaward Audit of a Claim for Increased Costs: Donaldson Acoustics Co., Inc., Sub-    08/25/86
         contractor to Terminal Construction Corp., Contract No. GS-02P-23256
A60352   Pre award Audit of Architect and Engineering Services Contract: Shepley, Bulfinch,    08/25/86
         Richardson, and Abbott, Contract No. GS-IIB-09007
A60437   Preaward Audit of Architect and Engineering Services Contract: Castro-Blanco, Pis-    08/25/86
         cioneri, and Feder, P.c., Solicitation No. 02-PPC-CM-086-0509
A60488   Preaward Audit of Architect and Engineering Services Contract: Del Campo and          08/28/86
         Maru Architects, Project No. ICAl1200
A60521   Preaward Audit of Architect and Engineering Services Contract: Gayner Engineers,      08/28/86
         Consultant to Del Campo and Maru, Project No. ICAl1200
A60522   Preaward Audit of Architect and Engineering Services Contract: Ostgren Associates,    08/28/86
         Consultant to Qel Campo and Maru, Project No. ICAl1200
A60526   Preaward Audit of Architect and Engineering Services Contract: Gordon, Beard,         08/29/86
         Grimes, Bahls, and Domreis, Project No. WOR86001
A60527   Preaward Audit of Architect and Engineering Services Contract: Carson, Bekooy,        08/29/86
         Gulick, and Associates, Inc., Project No. WOR86001
A60348   Preaward Audit of Cost or Pricing Data: Texas Security Guard Service, Solicitation    09/02/86
         No. GS-07-P-86-HT-C-0084/7PPB
A60509   Pre award Audit of Small Business Administration 8(a) Pricing Proposal: Alkat Elec-   09/02/86
         trical Contractors, Inc., Solicitation No. GS-003-86-00R-0025
A60593   Preaward Audit of Lease Escalation Proposal: Boulevard Office Park Building,          09/03/86
         Wichita, KS, Lease No. GS-06B-14274
A60524   Preaward Audit of Small Business Administration 8(a) Pricing Proposal: B & M Jan-     09/04/86
         itorial Services & Sales, Inc., Solicitation No. GS-003-86-00R-0020
A60414   Preaward Audit of a Claim for Increased CdstS: Tyger Construction Company, Con-       09/08/86
         tract No. GS-04B-83034
A60535   Preaward Audit of Architect and Engineering Services Contract: Pappas Associates,     09/09/86
         Architects} Inc., Contract No. GS-04P-86-EX-C-0057
A60414   Preaward Audit of a Claim for Increased Costs: Tyger Construction Company, Con-       09/11/86
         tract No. GS-04B-83034
A60552   Preaward Audit of Architect and Engineering Services Contract: Summer Consult-        09/15/86
         ants, Inc., Solicitation No. GS-llB-69021
A60625   Pre award Audit of Proposed Overhead and Labor Burden Rates: General Construc-        09/15/86
         tion, Inc., Leavenworth, KS, Solicitation No. RM043550
A60591   Preaward Audit of Architect and Engineering Services Contract: Sussna Design Of-      09/18/86
         £ice, Solicitation No. 02-PPC-CM-086-0525                                                        37
     A60227   Preaward Audit of Cost or Pricing Data: Border Service Maintenance, Inc., Solicita-   09/19/86
              tion No. GS-07-P-86-HT-C-0015/7PPB-P
     A60583   Pre award Audit of Small Business Administration 8(a) Pricing Proposal: Cobarc Ser-   09/19/86
              vices Inc., Solicitation No. GS-IOP-86-LSC-0143
     A60598   Audit of Contractual Provisions: Northern Virginia Service Corporation, Contract      09123186
              No. GS-05B-42391
     A60590   Preaward Audit of Architect and Engineering Services Contract: ATC, Inc., Solici-     09125/86
              tation No. 02-PPC-CM-086-0511
     A60326   Preaward Audit of a Claim for Increased Costs: Aires Electrical Contracting Corp.,    09129/86
              Subcontractor to Terminal Construction Corp., Contract No. GS-02P-23256


     PBS      Internal Audits
     A60308   Preaward Lease Review: 7th and Franklin Building, 701 E. Franklin St., Richmond,      04/03/86
              VA, Lease No. GS-03B-05828
     A60l26   Review of Region 9 Controls Over the Identification, Inspection, and Documenta-       04/04/86
              tion of Polychlorinated Biphenyls
     A60307   Pre award Lease Review: Equitable Building, 10 N. Calvert Street, Baltimore, MD,      04/04/86
              Lease No. GS-03B-00618
     A60317   Preaward Lease Review: Ames Center Building, 1820 North Fort Myer Drive,              04/04/86
              Arlington, VA, Lease No. GS-llB-60205
     A50218   Review of Buildings Management Operations, Region 7                                   04/07/86
     A40284   Review of Energy Use in Leased, Owner-Serviced Buildings Where GSA Pays Utilities     04/08/86
     A50222   Review of the Cleaning Services Contracts in the National Capital Region              04110186
     A60319   Review of A-76 Mechanical Services Study, Louisville, KY                              04/11186
     A60l26   Review of Controls Over the Identification, Inspection, and Documentation of Poly-    04/14/86
              chlorinated Biphenyls
     A60337   Preaward Lease Review: 841 Chestnut St. Building, 7th Floor, Philadelphia, PA,        04/14/86
              Lease No. GS-03B-60019
     A60262   Preaward Lease Review: Presidio, TX, Lease No. GS-07B-12090                           04/17/86
     A60341   Preaward Lease Review: National Park Service, Lakewood, CO, Lease No. GS-08P-         04/17/86
              12734
     A60233   Vacant Space Leased at 165 N. Canal, Chicago, IL, Lease No. GS-05B-12918              04/18/86
     A60061   Building Management Review, Helena Field Office, MT                                   04123186
     A50553   Review of the Fire and Life Safety Program in Region 5                                04129/86
     A60l26   Review of Controls Over the Identification and Documentation of Polychlorinated       05/01/86
              Biphenyls
     AS0l74   Review of Mechanical Maintenance/Service Contract Program, Region 9                   05/02186
     A50325   Review of Construction Contract No. GS-05-BC-81846, Cross Tie of Chilled Water        05/02/86
              System
     A60002   Review of Buildings Management Field Office, Cleveland, OH, Region 5                  05/02/86
     A60126   Review of Controls Over the Identification, Inspection, and Documentation of Poly··   05/06/86
              chlorinated Biphenyls
     A50222   Review of Cleaning Services Contracts, Region 5                                       05/07/86
     A60385   Preaward Lease Review' Riddell Building, 1730 K Street, NW, Washington, DC,           05/08/86
              Lease No. GS-ll B-6003 7
     A60386   Preaward Lease Review: USGS, Denver West Office Building No.3, Venture, Denver,       05/08/86
              CO, Lease No. GS-09B-12762
     A50226   Review of Indefinite Quantity Contracts for Repairs and Alterations, Region 5         05/09/86
38
A60383   Preaward Lease Review: Orbanco Building, Portland, OR, Lease No. GS-lOB-05295          05/09/86
A60306   Interim Report on Advisory Review of Proposed Supplemental Lease Agreement No.         05/13/86
         49, Lease No. GS-06B-10967, Gilroy-Sims and Associates, St. Louis, MO
A50284   Lease Administration and Energy Usage, Food and Drug Administration Laboratory,        05/16/86
         New Orleans, LA (Lease No. GS-07B-10811)
A60408   Preaward Lease Review: 901 Market St., San Francisco, CA, Lease No. GS-09B-58141       05/16/86
A60415   Preaward Lease Review: Lippincott Building, 11501 Roosevelt Blvd., Philadelphia,       05/16/86
         PA, Lease No. GS-03B-60606
A60338   Review of Tax De-escalation Adjustment, Lease No. GS-09B-76503, Supplemental           OS/21/86
         Lease Agreement No.3, Bayview Towers, 2601 Mission St., San Francisco, CA
A60126   Review of Region 6's Controls Over Polychlorinated Biphenyl Contaminants               05/30/86
A60418   Preaward Lease Review: Crystal Park I, 2011 Crystal Dr., Arlington, VA, Lease No.      06/02/86
         GS-llB-60185
A60261   Lease Acquisition for the Department of Education's Kansas City Regional Office,       06/04/86
         Lease No. GS-06P-68539
A60296   Review of Lease Acquisition for the Small Business Administration's Wichita, KS,       06/04/86
         District Office, Lease No. GS-06P-68535
A60426   Preaward Lease Review: 55 South Market St., San Jose, CA, Lease No. GS-09B-85649       06/04/86
A60444   Preaward Lease Review: 71 Stevenson St., San Francisco, CA, Lease No. GS-04B-          06/10/86
         86020
A50553   Review of the Fire Safety Program in the General Services Administration, National     06/13/86
         Capital Region
A60323   Review of Life Safety Problems in the National Archives Building                       06/23/86
A60390   Review of Repair and Alteration Work at the U.S. Post Office and Courthouse,           06/27/86
         Brownsville, TX
A60467   Preaward Lease Review: 2045 Wheatsheaf Lane, Philadelphia, PA, GS-03B-60647            06/27/86
A50438   Final Letter Report - Contracting Problems Noted During a Review of Correspon-         07/02/86
         dence From a Carpeting Contractor
A60481   Pre award Lease Review: Research Triangle Park, NC, Lease No. GS-04B-24303             07/02/86
A60460   Pre award Lease Review: 240 Elm Street, Somerville, MA, Lease No. GS-OIB-(PEL)-        07/03/86
         03508(NEG)
A60223   Pre award Lease Review: Maiatico Building, 806 Connecticut Avenue, NW, Wash-           07/10/86
         ington, DC, Lease No. GS-03B-5044
A50621   Review of Region 4's Lease Enforcement Procedures                                      07/15/86
A60180   Predecisional Report Pertaining to the Proposed Restructuring of the Federal Protec-   07/16/86
         tive Service
A60306   Advisory Review of Proposed Supplemental Lease Agreement No. 49, Lease No. GS-         07/18/86
         06B-10967, Gilroy-Sims and Associates, St. Louis, MO
A60124   Review of Administration of Guard Contracts in Region 4                                07/22/86
A60507   Advisory Review of Proposed Lease Renewal: Lease No. GS-06B-28070, 10950 EI            07/23/86
         Monte, Overland Park, KS
A60530   Allegations About Region 4's A-76 Study, Louisville, KY                                08/05/86
A50621   Review of Region 3's Lease Enforcement Procedures                                      08/07/86
A60533   Preaward Lease Review: One Congress Center, 401 S. State Street, Chicago, IL, Lease    08/07/86
         No. GS-05B-14394
A60531   Preaward Lease Review: Bicentennial Building, 600 E Street, NW, Washington, DC,        08/08/86
         Lease No. GS-llB-6021O
A60532   Preaward Lease Review: Comsat Building, 950 L'Enfant Plaza, SW, Washington, DC,        08/13/86
         Lease No. GS-llB-60294
                                                                                                           3
     A60538   Proposed Award of Lease: 555 West 57th Street, New York, NY, Lease No. GS-02B-         08119/86
              17530
     A60l77   Review of Tucson Field Office, Region 9                                                08120/86
     A60l77   Review of Las Vegas Field Office, Region 9                                             08129/86
     A60573   Proposed Exercising of Renewal Option: Lease No. GS-04B-15564, 700 Twiggs              09102/86
              Street, Tampa, FL
     A50621   Review of Lease Enforcement, Region 5                                                  09/04/86
     A50621   Review of Lease Enforcement at 77-14 Roosevelt Avenue, Queens, NY                      09/04/86
     A60551   Review of A-76 Mechanical Services Study, TampalSarasota, FL                           09/08/86
     A60558   Pre award Lease Review: 330 Main Street, Hartford, CT, Lease No. GS-01B(PEL)-          09/08/86
              03513(NEG)
     A60314   Review of GSA's Coordination of Space Alterations and the Initial Occupancy of 400     09/15/86
              Army Navy Drive
     A60623   Pre award Lease Review: Davidson Building, Atlanta, GA, Lease No. GS-04B-26240         09115/86
     A60534   Pre award Lease Review: Lease No. GS-04B-25613, Packard Place Building, Charlotte,     09118/86
              NC


     FSS      Contract Audits
     A60216   Pre award Audit of Multiple Award Schedule Contract: 3M Company, Printing Prod-        04114/86
              ucts Division, Solicitation No. FGE-A4-75361-N
     A60229   Preaward Audit of Multiple Award Schedule Contract: Midwest Trophy Company,            04/30/86
              Solicitation Nos. 7PN-52681/R5/7FC and 7PN-52682/V5/7FC
     A60245   Preaward Audit of Multiple Award Schedule Contract: Broadway Sporting Goods            05/01186
              Co., Inc., Solicitation No. 7PM-526811R5/7FC
     A60246   Preaward Audit of Multiple Award Schedule Contract: Broadway Sporting Goods            05/01186
              Co., Inc., Solicitation No. 7PM-526821V517FC
     A60254   Preaward Audit of Cost or Pricing Data: Security Engineered Machinery Co., Inc., So-   05/05/86
              licitation No. FGE-A4-75361-N-1-9-86
     A60344   Postaward Audit of Multiple Award Schedule Contract: Ortho Diagnostic Systems,         05/07/86
              Inc., Contract No. GS-00F-45254 for the Period 6/1184 to 5/31185
     A60221   Pre award Audit of Multiple Award Schedule Contract: Michael Business Machines         05/09/86
              Corp., Solicitation No. FGE-A4-75361-N
     A60381   Report on Review of Proposal for Initial Pricing Under RFP No. WFCG-G1-N-2003-         05/09/86
              3-6-86: ITT Defense Communications Division, Nutley, NJ
     A60329   Pre award Audit of Cost or Pricing Data: Amerex Corporation, Solicitation No. GS-      05/13/86
              08-1553
     A60238   Pre award Audit of Cost or Pricing Data: Wright Line, Incorporated, Solicitation No.   05115/86
              GS-00F-76047
     A60266   Preaward Audit of Cost or Pricing Data: Axia Inc., Nestaway Division, Solicitation     06/04/86
              No. lOPN-NES-0379
     A60121   Preaward Audit of Cost or Pricing Data: Manassa Systems, Inc., Solicitation No. BOI    06/09/86
              TC-R-00570
     A60315   Preaward Audit of Multiple Award Schedule Contract: Wells Fargo Security Prod-         06/11/86
              ucts, Solicitation No. 7PM-52678/R517FC
     A60225   Preaward Evaluation of Multiple Award Schedule Contract: Whitaker Brothers Busi-       06112/86
              ness Machines, Solicitation No. FGE-A4-75361-N-1-9-86
     A60347   Preaward Audit of Multiple Award Schedule Contract: Kroy, Incorporated, Solicita-      06/26/86
              tion No. FCGE-D4-75369-N-3-18-86
     A60358   Preaward Audit of Multiple Award Schedule Contract: Canon U.S.A., Inc., Solicita-      07/01186
40            tion No. FCGE-D4-75369-N-3-18-86
A60439   Pre award Audit of Multiple Award Schedule Contract: E-Z-GO Textron, Inc., Solic-      07114/86
         itation No. 7PM-52835/S5/7FC
A60275   Postaward Audit of Multiple Award Schedule Contract: S & S Arts and Crafts, Con-       07/28/86
         tract Nos. GS-lOS-44596 and GS-lOF-46836 for the Period 1/1/83 to 12/31/85
A60410   Preaward Audit of Multiple Award Schedule Contract: Jay Bee Manufacturing, In-         07/30/86
         corporated, Solicitation No. FGE-A4-75361-N-1-9-86
A60432   Preaward Audit of Multiple Award Schedule Contract: 3M Company, Office Sys-            08/01/86
         terns Division, File Management Systems, Solicitation No. FGE-B3-75363-N-3-20-
         86
A60387   Preaward Audit of Multiple Award Schedule Contract: Bell & Howell Company,             08/06/86
         Document Management Products Division, Solicitation No. FGE-B3-75363
A60485   Preaward Audit of Multiple Award Schedule Contract: OMC Lincoln, Lincoln, NE,          08/08/86
         Solicitation No. 7PM-52835/S5/7FC
A60342   Preaward Audit of Multiple Award Schedule Contract: Adler-Royal Business Ma-           08111/86
         chines Inc., Solicitation No. FCGE-D4-75369-N-3-18-86
A60504   Preaward Audit of Multiple Award Schedule Contract: Game Time, Inc., Solicitation      08/15/86
         No. 7PM-52840/JA/7FC
A60559   Preaward Audit of Cost or Pricing Data: Data Products New England, Inc., Solicita-     08/15/86
         tion No. WFCG-G6-N-2002-12-85
A60562   Pre award Survey of Accounting System: DHL Airways, Inc., Solicitation No. FBT-        08/19/86
         057-A-7-1-86
A60493   Pre award Audit of Multiple Award Schedule Contract: Northwest Design Products,        08/22/86
         Inc., dba Bigtoys, Solicitation No. 7PM-52840/J4/7FC
A60361   Pre award Audit of Multiple Award Schedule Contract: Eastman Kodak Company,            08/25/86
         Solicitation No. FGE-B3-75363-N
A60514   Preaward Audit of Multiple Award Schedule Contract: Taylor Dunn Manufacturing          08/25/86
         Company, Solicitation No. 7PM-52835/S5/7FC
A60371   Preaward Audit of Multiple Award Schedule Contract: Olivetti USA, Solicitation         08/27/86
         No. FCGE-D4-7S369-N
A60495   Preaward Audit of Cost or Pricing Data: Curtiss-Wright/Marquette, Inc., Solicitation   08/29/86
         No. FCEN-EW-A6111-N-5-14-86
A60409   Preaward Audit of Multiple Award Schedule Contract: Hydra-Shield Manufacturing,        09/10/86
         Inc., Solicitation No. GS-08-1553
A60632   Report on Review of FFP Proposal for Initial Pricing Under RFP No. FGE-A4-7536l:       09/18/86
         L & F Industries, Huntington Park, CA
A60187   Preaward Audit of Multiple Award Schedule Contract: International Data Corpora-        09/23/86
         tion, Solicitation No. BO/FS-B-00599(N)
A60498   Preaward Audit of Cost or Pricing Data: Intexx Corporation, Solicitation No. GS-08-    09/24/86
         1572
A60519   Preaward Audit of Cost or Pricing Data: Whitaker Brothers Business Machines, Inc.,     09/26/86
         Solicitation No. FGE-A4-75361-N-I-9-86
A60500   Preaward Audit of Multiple Award Schedule Contract: Stanley-Vidmar, Inc., Solici-      09/30/86
         tation No. FNP-A5-1937-N-I-21-86
A60568   Preaward Audit of Multiple Award Schedule Contract: Endure-A-Lifetime Products,        09/30/86
         Inc., Solicitation No. GS-08-1572


FSS      INTERNAL AUDITS
A60119   Limited Review of Office Products Center Store No. 74, Washington Navy Yard            04/02/86
AS0084   Review of Effectiveness and Vulnerability of FSS Quality Assurance Program, Region 2   04/17/86
AS0l92   Review of the Freight Transportation Audit Function Within the Office of Transpor-     05/02/86
         tation Audits                                                                                     41
     A30705   Review of the Specification Operations of the Office of Commodity Management,          OS/23/86
              Federal Supply Service
     A60274   Review of Utilization of Motor Pool System Vehicles Assigned to Region 7 GSA           06103/86
              Activities
     A50538   Review of City-Pairs Program                                                           06105/86
     A60128   Personal Property and Vehicle Sales Program, Region 9                                  06/12186
     A60055   Review of DHL Contract for Express Small Package Deliveries                            06116/86
     A60188   Need to Constantly Review Award Procedures Illustrated by Circumstances Sur-           08/15/86
              rounding Termination of Contract GS-OWF-52779
     A60055   Review of the Contract for Express Small Package Deliveries                            08118/86
     A60118   Review of Industrial Products Store, National Capital Region                           08/27/86
     A60l29   Review of Supply Discrepancy Data Provided by the Discrepancy Reports Center           09109/86
     A60638   Recovery of Vendor Overpayments, National Machinery and Supply Company                 09/26186


     IRMS     Contract Audits
     A60169   Preaward Audit of Multiple Award Schedule Contract: International Business Ma-         04/09/86
              chines Corporation, Solicitation No. GSC-KESA-G-00032-N-12-17-85
     A60194   Preaward Audit of Multiple Award Schedule Contract: Data Access Systems, Inc.,         04/11186
              Solicitation No. GSC-KESA-G-00031-N-12-3-85
     A60040   Preaward Audit of Cost or Pricing Data: Capital Systems, Inc., Solicitation No. GSC-   04118/86
              KECT-A-00008-N-4-10-85
     A60278   Postaward Audit of Multiple Award Schedule Contract: M.P.H. Industries, Inc.,          04/25/86
              Chanute, KS, Contract No. GS-00K-85-AGS-0822 for the Period 411/85 to 3/31/86
     A60357   Report on Review of Proposal for Initial Pricing Under RFP No. GSC-KESA-G-00031-       04/29/86
              N-12-3-85 & GSC-KESA-G-00032-N-12-17-85: Delta Data Systems Corporation,
              Trevose, PA
     A60091   Preaward Audit of Multiple Award Schedule Contract: Boeing Computer Services,          05/02/86
              Analysis of Cost/Price Relationships, Solicitation No. GSC-KECT-A-00008-N-4-10-85
     A60384   Audit Report on Evaluation of Price Proposal Submitted in Response to GSC-KESA-        05/06/86
              G-00032-N-12-1 7-85: International Technology Corporation, McLean, VA
     A60346   Preaward Audit of Cost or Pricing Data: Compaq Computer Corporation, Solicita-         05/07/86
              tion No. GSC-KESA-G-00032-N-12-17-85
     A50l38   Postaward Audit of Multiple Award Schedule Contract: Dysan Corporation, Con-           05/08/86
              tract No. GS-00C-02219 for the Period 4/1/80 to 3/31181
     A50375   Postaward Audit of Multiple Award Schedule Contract: Data General Corporation,         05115/86
              Contract No. GS-00C-03401 for the Period 1011 /82 to 11117/83
     A50376   Postaward Audit of Multiple Award Schedule Contract: Data General Corporation,         05115/86
              Contract No. GS-OOK-83-OlS-5763 for the Period 11118/83 to 9/30/84
     A50377   Postaward Audit of Multiple Award Schedule Contract: Data General Corporation,         05115/86
              Contract No. GS-OOC-03078 for the Period 3/23/82 to 9/30/82
     A60339   Preaward Audit of Cost or Pricing Data: System Development Corporation, A Bur-         OS/23/86
              roughs Company, Contract No. GS-00K-86-AGS-5643
     A60253   Preaward Audit of Multiple Award Schedule Contract: Computer-Link Corporation,         OS/29/86
              Solicitation No. GSCKESA-G-0003I-N-12-3-85
     A60320   Postaward Audit of Contract No. GS-00K-85-AGS-51S1: Printer Systems Corporation        05/30/86
     A60366   Preaward Audit of Multiple Award Schedule Contract: Evans & Sutherland Com-            05/30/86
              puter Corporation, Solicitation No. GSC-KESA-G-00033-N-4-15-86
     A60373   Pre award Audit of Multiple Award Schedule Contract: Modular Computer Systems,         06112/86
              Inc., Solicitation No. GSC-KESA-C-00033-N-4-1S-86
42
A60379   Preaward Audit of Multiple Award Schedule Contract: DATUM Inc., Anaheim, CA,           06/18/86
         Solicitation No. GSC-KESA-C-00033
A60421   Preaward Audit of Multiple Award Schedule Contract: AGS Management Systems,            06/26/86
         Inc., Solicitation No. GSC-KESA-C-00033-N-4-15-86
A60372   Preaward Audit of Multiple Award Schedule Contract: UCCEL Corporation, Solici-         07/01/86
         tation No. GSC-KESA-C-00033-N-4-15-86
A60412   Preaward Audit of Multiple Award Schedule Contract: CSP Incorporated, Solicita-        07/01/86
         tion No. GSC-KESA-C-00030-N-4-15-86
A60492   Report on Review of Contractor's Proposal for Initial Pricing Under RFP GSC-KESA-      07/02/86
         C-00033: Norden Systems, Inc., Gaithersburg, MD
A60335   Preaward Audit of Cost or Pricing Data: Paragram Sales Company, Inc., Solicitation     07/09/86
         No. GSC-KESCR-00036-N-12-3-85
A60393   Preaward Audit of Cost or Pricing Data: Capital Systems, Inc., Solicitation No. GSC-   07/09/86
         KECT-A-00008-N-4-10-85
A60378   Preaward Audit of Multiple Award Schedule Contract: Massachusetts Computer             07/10/86
         Corporation, Solicitation No. GSC-KESA-C-00030-N-4-11-85, (GS-OOK-86-AGS-
         5577 Renewal)
A60398   Preaward Audit of Multiple Award Schedule Contract: Network Systems Corpora-           07/17/86
         tion, Solicitation No. GSC-KESA-C-00033-N
A60401   Preaward Audit of Multiple Award Schedule Contract: Compuscan, Inc., Solicitation      07/18/86
         No. GSC-KESA-C-00033-N
A60433   Pre award Audit of Multiple Award Schedule Contract: NCR-Comten, Inc., Solici-         07/18/86
         tation No. GSC-KESA-C-00033-N-4-15-86
A60440   Preaward Audit of Multiple Award Schedule Contract: Floating Point Systems, Inc.,      07/18/86
         Solicitation No. GSC-KESA-C-00033-N-4-15-86
A60515   Audit Report on Evaluation of Proposal Review Submitted by: Watkins-Johnson,           07/18/86
         Gaithersburg, MD, Solicitation No. GSC-KESCR-00039-N-5-13-86
A60353   Preaward Audit of Multiple Award Schedule Contract: NCR Corporation, Solicita-         07/23/86
         tion No. GSC-KESA-C-00033-N-4-15-86
A60365   Pre award Audit of Multiple Award Schedule Contract: Northern Telecom Inc., So-        07/28/86
         licitation No. GSC-KESA-C-00033-N-4-15-86
A60427   Preaward Audit of Multiple Award Schedule Contract: Harris Corporation, Com-           07/30/86
         puter Systems Division, Solicitation No. GSC-KESA -C-00033-N -4-15-86
A60066   Postaward Audit of Multiple Award Schedule Contract: Compugraphic Corporation,         08/01/86
         Contract No. GS-00K-84-01S-5649 and Modification lA for the Period 10/1/83 to
         9/30/85
A60388   Preaward Audit of Multiple Award Schedule Contract: Control Data Corporation,          08/06/86
         Solicitation No. GSC-KESA-C-00033
A60067   Postaward Audit of Multiple Award Schedule Contract: Data Translation, Inc.,           08/08/86
         Contract No. GS-OOK-84-OlS-5506 and Modification 1A for the Period 10/1/83 to
         9/30/85
A50358   Postaward Audit of Multiple Award Schedule Contract: Sony Corporation of Amer-         08/12/86
         ica, Contract No. GS-00K-84-OlS-0350 for the Period 4/1/84 to 3/31/85
A50534   Postaward Audit of Multiple Award Schedule Contract: Sony Corporation of Amer-         08/12/86
         ica, Contract No. GS-OOC-90674 for the Period 10/1/82 to 3/31/84
A60014   Postaward Audit of Multiple Award Schedule Contract: Sony Corporation, Contract        08/12/86
         No. GS-OOC-90l83 for the Period 8/13/80 to 9/30/82
A60356   Preaward Audit of Multiple Award Schedule Contract: Adage, Inc., Solicitation No.      08/12/86
         GSC-KESA -C-00033-N -4-15-86
A60429   Pre award Audit of Cost or Pricing Data: Media Cybernetics, Inc., Solicitation No.     08/15/86
         GSC-KESA -G-00032-12-1 7-85

                                                                                                           43
     A60442    Preaward Audit of Multiple Award Schedule Contract: Decision Data Computer            08/20/86
               Corporation, Solicitation No. GSC-KESA-C-00033-N-4-15-86
     A60513    Preaward Audit of Multiple Award Schedule Contract: Digital Equipment Corpora-        08/20/86
               tion, Renewal of Contract No. GS-00K-86-AGS-5669
     A60449    Pre award Audit of Multiple Award Schedule Contract: Calcomp Group, Sanders As-       08/26/86
               sociates, Inc., Solicitation No. GSC-KESA-C-00033-N-4-15-86
     A60480    Preaward Audit of Multiple Award Schedule Contract: General Electric Company,         08/27/86
               Mobile Communications Business Division, Solicitation No. GSC-KESCR-00039-
               N-5-13-86
     A60491    Preaward Audit of Multiple Award Schedule Contract: Tektronix Inc., Solicitation      08/27/86
               No. GSC-KESA-C-00033-N-4-15-86
     AS0139    Postaward Audit of Multiple Award Schedule Contract: Dysan Corporation, Con-          08/29/86
               tract No. GS-00C-03300 for the Period 10/14/82 to 5/1/83
     A6039 1   Preaward Audit of Multiple Award Schedule Contract: N eft Instrument Corporation,     08/29/86
               Solicitation No. GSC-KESA-C-00033-N-4-15-86
     A60436    Preaward Audit of Multiple Award Schedule Contract: REIIInforex, Inc., Solicitation   08/29/86
               No. GSC-KESA-C-00033-N-4-15-86
     A60501    Preaward Audit of Multiple Award Schedule Contract: Data Switch Corporation, So-      08/29/86
               licitation No. GSC-KESA-C-00033-N-4-15-86
     A60525    Pre award Audit of Multiple Award Schedule Contract: CPT Corporation, Solicita-       08/29/86
               tion No. GSC-KESA-C-00033-N-4-15-86
     A60450    Preaward Audit of Cost or Pricing Data: Rolm Mil-Spec Computers, San Jose, CA,        09/05/86
               Solicitation No. GSC-KESA-C-00033-N
     A60422    Preaward Audit of Multiple Award Schedule Contract: CACI, Inc., Federal, Solici-      09/08/86
               tation No. GSC-KESA-C-00033-N-4-15-86
     A60374    Preaward Audit of Multiple Award Schedule Contract: Motorola Computer Systems,        09/10/86
               Inc., Solicitation No. GSC-KESA-C-00033-N-4-15-86
     A60354    Preaward Audit of Multiple Award Schedule Contract: Datapoint Corporation, So-        09/11/86
               licitation No. GSC-KESA-C-00033-N-4-15-86
     AS0356    Postaward Audit of Multiple Award Schedule Contract: Sony Corporation of Amer-        09/12/86
               ica, Contract No. GS-00K-84-01 S-0369 for the Period 8/1/84 to 9/23/85
     A60451    Preaward Audit of Multiple Award Schedule Contract: King Radio Corporation,           09/12/86
               Olathe, KS, Solicitation No. GSC-KESCR-00029-N-5-13-86
     A60483    Preaward Audit of Multiple Award Schedule Contract: Nixdorf Computer Corpora-         09/17/86
               tion, Solicitation No. GSC-KESA-C-00033-N-4-15-86
     A60S06    Preaward Audit of Multiple Award Schedule Contract: Xerox Corporation, Solicita-      09/17/86
               tion No. GSC-KESA-C-00033-N-4-15-86
     A6046 1   Preaward Audit of Multiple Award Schedule Contract: Collins Transmission Sys-         09/24/86
               terns Division, Rockwell International Corporation, Solicitation No. GSC-KESCR-
               00039-N-5-13-86
     A60S41    Preaward Audit of Multiple Award Schedule Contract: Concurrent Computer Cor-          09/29/86
               poration, Contract No. GS-00K-86-AGS-5738


     IRMS      Internal Audits
     AS0490    Interim Report on Position Management and Classification in the Contract Services     04/28/86
               Program
     ASOOS6    Review of Contract Services Program in Region 7                                       04/30/86
     A40731    Review of the Contract Services Program in the National Capital Region                06/30/86
     A60300    Review of the Purchase of Telephones and Services Contract, Region 7                  09/12/86
     AS0490    Review of GSA's Contract Services Program                                             09/19/86
44   A60537    Review of Pricing Evaluation for Purchase of Telephones and Services Contracts        09/24/86
A60537   Review of Pricing Evaluations for the Purchase of Telephones and Services               09/29/86
A60183   Review of Implementation of the Project for Replacement of Common Control               09/30/86
         Switching Arrangements


Other
GSA      Contract Audits
A60309   Pre award Audit of Claims for Increased Costs: Interior Contractors, Subcontractor to   07/07/86
         Continental Heller Corporation, Subcontract No. 381-17, Contract No. GS-09B-
         00700
A60517   Pre award Audit of Cost or Pricing Data: Macalloy Corporation, Solicitation No.         07/28/86
         DMC-A105
A60505   Preaward Audit of Cost or Pricing Data: Elkem Metals Company, Solicitation No.          09/15/86
         DMC-A106
A60624   Preaward Audit of Cost or Pricing Data: Macalloy Corporation, Solicitation No.          09/26/86
         DMC-A105


Other
GSA      Internal Audits
A60211   Review of Region 6 Employees' Use of Government Vehicles for Home-to-Work               04/03/86
         Transportation
A60211   Review of the Use of Government Vehicles for Home-to-Work Transportation                04/03/86
A60211   Review of the Use of Government Vehicles for Home-to-Work Transportation,               04/15/86
         Region 1
A60211   Review of the Use of Government Vehicles for Home-to-Work Transportation,               04/17/86
         Region 5
A60211   Review of the Use of Government Vehicles for Home-to-Work Transportation,               04/22/86
         Region 2
A50397   Review of the Congressional Furnishings Program in Region 4                             04/30/86
A60211   Review of the Use of Government Vehicles for Home-to-Work Transportation                05/06/86
A50581   Review of Controls Over Data Entered Into the Payroll Information Processing            05/09/86
         System
A60280   Review of the Administrative Equipment Inventory                                        05/15/86
A60162   Review of the Imprest Fund and Travelers Check Activities, National Capital Region      OS/28/86
A50351   Review of ADP/OA Equipment Accountability and Control                                   06/04/86
A60211   Review of Government Vehicle Use for Home-to-Work Transportation                        06/20/86
A60211   Review of the Use of Government Vehicles for Home-to-Work Transportation                06/27/86
A50554   Review of A-76 In-House Awards                                                          07/11/86
A60211   Review of GSA's Use of Government Vehicles for Home-to-Work Transportation              07/22/86
A60425   Recovery of Vendor Overpayments, Printing and Distribution Branch, Region 5             09/03/86
A50275   Review of Federal Telecommunications System Utilization (Phase I), National Cap-        09/18/86
         ital Region
A60486   Review of Allegations Regarding the Quality of Administrative Support Services Pro-     09/18/86
         vided by GSA to the Federal Maritime Commission
A50275   Review of Federal Telecommunications Systems Utilization, Phase II                      09/22/86
A60259   Limited Review of the Federal Managers' Financial Integrity Act, Section 2, Fiscal      09/24/86
         Year 1985
A60259   Limited Review of the Federal Managers' Financial Integrity Act, Section 4, Fiscal      09/24/86
         Year 1985                                                                                          45
     A50437   Review of Operations and Physical Security at National Defense Stockpile Loca-     09/30/86
              tions, Zone 1
     A60212   Review of Custodial Transfers of Strategic and Critical Material                   09/30/86


     Non-
     GSA      Contract Audits
     A60417   Review of Contract Costs: Evergreen Air Center, Inc., Lease No. FTC 1-85           06119186
     A60564   Supplemental Review of Contract Costs: Evergreen Air Center, Inc., Lease No. FTC   09/02/86
              1-85




46
APPENDIX II - DELINQUENT DEBTS

GSA's Office of Comptroller provided the information             •     Revision of GSA regulations to recognize the
presented herein.                                                      Government's right to offset under common law
                                                                       rather than under the Debt Collection Act of
                                                                       1982. This action followed from a Department of
                                                                       Justice opinion concerning the impact of the Con-
                                                                       tract Disputes Act of 1978 on the provisions of
GSA Efforts to Improve Debt                                            the Debt Collection Act of 1982.

Collection                                                       •     Preparation of a letter to all mortgagors suggesting
                                                                       that they take advantage of the current low inter-
During the period April 1, 1986 through September 30,                  est rates and obtain private loans to payoff their
1986, GSA efforts to improve debt collection and                       GSA mortgages. In a related matter, six mortga-
reduce the amount of debt written off as uncollectible                 gors, owing a total of $1.9 million, have already
focused on upgrading collections functions and enhanc-                 approached GSA to prepay their mortgages.
ing debt management. GSA also emphasized obtaining                     Notably, GSA's mortgages do not include provi-
cash for surplus real property sales rather than extend-               sions penalizing mortgagors for prepaying out-
ing credit.                                                            standing amounts.

Specific initiatives during the reporting period
included:
  •   An evaluation, undertaken in response to an OMB
                                                               Non .. Federal Accounts
      request, of the feasibility of selling the loans in      Receivable
      GSA's portfolio. GSA concluded that its mort-
      gages are not very marketablej however, the              Since data for the period April 1, 1986 through Septem-
      Agency would be interested in participating in the       ber 30, 1986 were not available at the time of publica-
      OMB program if GSA loans were pooled with                tion of this report, 6-month data for the period
      those of another agency.                                 December 31, 1985 through June 30, 1986 are provided.



                                                             As of           As of
                                                        December 31, 1985 June 30, 1986 Difference

      Total Amounts
        Due GSA .................................. .        $58,284,797             $29,063,286      ($29,221,511 )
      Amount Delinquent. ......................... .        $16,744,276             $16,068,816         ($675,460)
      Total Amount Written
        Off as Uncollectible
        Between 12/31/85
        and 6/30/86 ............................... .       $142,369



Some of the above amounts are being disputed. The dis-         1985, and $11.1 million of the total amounts due GSA
puted amounts are: $11.9 million of the total amounts          and the amount delinquent as of June 30, 1986.
due GSA and the amount delinquent as of December 31,




                                                                                                                              47
     APPENDIX III - SUMMARY OF OIG
     PERFORMANCE DURING FISCAL YEAR 1986
     During Fiscal Year 1986, OIG activities resulted in:        •   Civil complaints against 3 individuals, 10 civil
                                                                     settlements, and 1 civil judgment on civil matters
       •   657 audit reports.                                        referred.
       •   26 implementation reviews of internal audit           •   19 case referrals to other Federal and State agen-
           reports.                                                  cies for further investigation.
       •   Recommended cost avoidances and recoveries of         •   57 reprimands, 30 suspensions, 1 demotion, and
           over $182 million.                                        25 terminations of GSA employees.
       •   Management commitments to more efficiently            •   20 case referrals recommending suspension of 62
           use over $105 million.                                    contractors.
       •   Management commitments to recover funds, vol-         •   26 case referrals recommending debarment of 90
           untary recoveries, court-ordered recoveries, and          contractors.
           investigative recoveries of almost $14 million.
                                                                 •   46 contractor suspensions and 47 contractor
       •   399 new investigations opened and 503 cases               debarments.
           closed.
                                                                 •   15 OIG subpoenas.
       •   50 case referrals (80 subjects) accepted for crimi-
           nal prosecution and 6 case referrals (10 subjects)    •   526 legislative matters and 258 regulations and
           accepted for civil litigation.                            directives reviewed.
       •   52 criminal indictmentslinformations/com-             •   741 Hotline calls and letters, 22 GAO referrals,
           plaints and 54 successful prosecutions on crimi-          and 43 other agency referrals.
           nal matters referred.




48
NOTES
NOTES
